U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




            PUBLIC
           RELEASE


       NATIONAL OCEANIC AND
 ATMOSPHERIC ADMINISTRATION

Light Aircraft Fleet Should Be Privatized



 Final Audit Report No. STD-9952-8-0001 / August 1998




 Office of Audits, Science and Technology Audits Division
                                                 TABLE OF CONTENTS

                                                                                                                                     Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

I.        NOAA SHOULD PRIVATIZE ITS LIGHT AIRCRAFT
          SERVICES SUPPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          A.        NOAA Light Aircraft Are More Expensive to Use
                    Than Those of Private Contractors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          B.        Economies of Scale Is the Primary Factor Leading
                    to the Higher NOAA Cost . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          C.        Federal Policy Prohibits Uneconomical Government Activity . . . . . . . . . . . . . . 10

          D.        Operation of NOAA’s Light Aircraft Costs Government
                    Valuable Program Funding and Flight Hours . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          E.        Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          F.        NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          G.        OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          H.        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          I.        Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

II.       NOAA SHOULD DISCONTINUE USING ITS LIGHT AIRCRAFT
          FOR INTERAGENCY REIMBURSABLE PROJECTS . . . . . . . . . . . . . . . . . . . . . . . . . 15

          A.        Full Cost Exceeds Recovered Cost for NOAA-Owned Aircraft . . . . . . . . . . . . . 15

          B.        Government Policy Calls for Full Cost Recovery . . . . . . . . . . . . . . . . . . . . . . . . 18

          C.        Internal Control Weaknesses Contribute to Cost Underrecovery . . . . . . . . . . . . 18
    D.       Cost Underrecovery on Reimbursable Projects Diverts
             NOAA Program Funding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

    E.       Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

    F.       NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

    G.       OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

    H.       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

APPENDIXES

A    NOAA-Owned and Operated Aircraft (as of September 30, 1996) . . . . . . . . . . . . . . . . 24

B    Summary of OIG Overhead Cost Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

C    Comparison of OIG-Calculated Full Cost
          for the NOAA-Owned Aircraft with the Industry Standard . . . . . . . . . . . . . . . . . 31

D    Summary of NOAA’s Response to the Draft Audit Report
         and Related OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

E    NOAA’s Response to the Draft Audit Report
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




                                   EXECUTIVE SUMMARY

NOAA established the Aircraft Operations Center (AOC) in 1983 to supply mission-ready
aircraft and personnel for its five program offices. AOC, a component of the Office of NOAA
Corps Operations, is NOAA’s major flight operations group, with responsibility for gathering
atmospheric, oceanographic, and other data for such programs as hurricane and major storm
research, nautical and aeronautical charting, climate and global change, and snow and aerial
surveys. It operates a fleet of 14 aircraft, composed of two heavy aircraft, a mid-size jet, eight
light fixed-wing aircraft, and three helicopters. Ten of the aircraft operate primarily from
MacDill Air Force Base near Tampa, Florida; the other four are based at separate locations
outside Florida.

The heavy aircraft, averaging over 20 years old, are used for meteorologic and oceanographic
research; the light fixed-wing aircraft, averaging over 15 years old, for the coastal mapping,
airport obstruction charting, aerial survey, and flight edit programs; and the helicopters,
averaging 17 years old, for the hydrographic survey program. The mid-size jet, a Gulfstream
G-IV SP, was recently acquired and future missions include hurricane reconnaissance, weather
research, global climate studies, air chemistry, satellite validation, and remote sensor
development.

AOC’s aircraft are a small component of a large federal fleet of civilian aircraft, which has been
the subject of recent studies. In December 1996, the President’s Council on Integrity and
Efficiency (PCIE) reviewed the management of the federal civilian aircraft fleet and found that it
cost the government in excess of $1 billion annually to operate its aircraft programs. However,
information developed by the PCIE documented that the agencies’ operating costs are sometimes
understated. Several agencies omitted reporting costs of certain aspects of their operations, and
some did not report on the operating costs for several of their aircraft. Because many of these
costs are commingled with general agency program costs, it was not possible to establish the
extent of the understatement, although the PCIE stated that it is certainly in the multimillion
dollar range. Additional studies of operational efficiencies were commissioned by the General
Services Administration (GSA), which coordinates federal agency aircraft management and cost
reporting. These studies reported opportunities to reduce costs by $92 million annually if most
agencies consolidated their operations and entered into sharing arrangements.

The purpose of our audit was to determine whether outsourcing is a more cost-effective
alternative to in-house operation in meeting NOAA’s aircraft requirements. Excluded from our
comparisons were NOAA’s (1) two Lockheed WP-3D Orions, (2) Gulfstream G-IV SP jet, and
(3) Hughes 369/500D helicopter. The Orions possess unique capabilities not comparable at this

                                                  i
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




time with aircraft available in the private sector or from other government agencies while the
other two were not in service during fiscal year 1996.

NOAA Should Privatize Its Light Aircraft
Services Support

Our audit found that the full in-house cost to operate NOAA’s fleet of eight light aircraft and two
Bell helicopters averaged 42 percent more than the cost to operate similar aircraft available in the
private sector. As a result, in-house inefficiencies during fiscal year 1996 cost NOAA and
interagency programs an additional $1.9 million, or 1,840 flight hours, than if they had used the
private sector. Implementation of our recommendations will put up to $11.8 million of
government funds to better use. About $3.8 million results from outsourcing over a two-year
period, while up to $8 million will be generated from cash receipts to the U.S. Treasury if
NOAA’s eight light aircraft, two Bell helicopters, and its inactive Hughes 369/500D helicopter
are sold (see page 4).

To restructure NOAA’s aircraft services, ensuring more cost-effective aircraft services support,
we recommend that the Under Secretary for Oceans and Atmosphere:

     !         Retain the two Lockheed WP-3D Orions and the Gulfstream G-IV SP jet.

     !         Discontinue operating the eight fixed-wing light aircraft and the three helicopters
               (including the inactive Hughes 369/500D helicopter) and release them, in
               accordance with OMB Circular A-126, along with related spare parts.

     !         Establish written NOAA policy that program offices are to rely on the private
               sector, when economically advantageous, to provide all aircraft services support.

     !         Transfer AOC base funding for aircraft support to NOAA’s line organizations,
               and implement procedures to ensure that line organizations procure aircraft
               support from the most cost-effective private-sector sources.

     !         Pending release of aircraft and transfer of funding, report the full cost of each
               aircraft in accordance with federal accounting guidelines (see page 13).




                                                 ii
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




NOAA Should Discontinue Using Its Light Aircraft
For Interagency Reimbursable Projects

As part of our review of the full in-house cost to the government to operate the NOAA-owned
aircraft, we also found that AOC is not recovering the full cost of work that it performs under
reimbursable agreements with outside government agencies. As a result, in fiscal year 1996,
NOAA appropriations funded well over half the total cost of most sampled interagency
reimbursable agreements, resulting in a cost underrecovery of $573,064 and the diverting of
essential resources away from its core mission (see page 15).

We recommend that the Under Secretary for Oceans and Atmosphere:

     !         Discontinue all interagency reimbursable work related to NOAA-owned fixed-
               wing light aircraft and helicopters.

     Pending the discontinuance of interagency reimbursable work,

     !         Complete current interagency reimbursable agreements in accordance with
               NOAA’s stated policy of full cost recovery.

     !         Revise the AOC’s billing practices to be consistent with, and achieve, full cost
               recovery on all reimbursable agreements with outside sponsors.

     !         As appropriate, immediately amend any current interagency reimbursable
               agreements not based on full cost recovery.

     !         Seek reimbursement, beginning with fiscal year 1996 and where permitted by
               agreement, of the unrecovered full cost balances on all current reimbursable
               projects (see page 22).

NOAA Response

In responding to our draft report, NOAA disagrees with most of the conclusions and
recommendations because it believes that the report contained incomplete data, excluded costs
that should have been included, and did not take into account the benefits derived by NOAA and
its partners for federal cooperative projects. Specifically, NOAA states that it does not agree
with our conclusion that its group of 10 light aircraft are significantly more costly to operate


                                                iii
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




when their true or full costs are compared with the private sector. NOAA asserts that our
calculations of full in-house costs included double counted or other inappropriate overhead, and
our estimates of contractor hourly rates excluded costs for daily use or standby time and
modification and demodification of the aircraft. Also, NOAA states that our full in-house cost
for one of its two Twin Otter aircraft was higher than normal because of a reduction in flight
hours attributable to damage while undergoing maintenance. Regarding NOAA’s need to
recover full costs on interagency reimbursable agreements, NOAA asserts that although its policy
provides for recovery of full costs, both direct and indirect in some situations, it also allows for
waiving certain costs when the reimbursable project is beneficial to NOAA. Waiving certain
charges to partnering agencies provides an effective approach for meeting some of NOAA’s data
collection needs.

OIG Comments

We thoroughly assessed NOAA’s comments and concerns, and reviewed the additional
information that NOAA provided. After careful review, we reaffirm our conclusion that
NOAA’s group of 10 light aircraft are significantly more costly to operate when their true or full
costs are compared with the private sector. Regarding overhead, we obtained evidence that
indicates that some overhead was double counted, supporting a net decrease to the amount
included in the draft report. We therefore adjusted our calculation of full in-house cost to
account for the double counting. Regarding daily use or standby time, NOAA has not provided
evidence which demonstrates that such charges are routinely included in the provisions of current
NOAA contracts for aircraft support. We believe that including such costs in contractor rates is
inappropriate and have identified specific comparable examples of NOAA projects where
contractors do not charge for daily use or standby time. Regarding modification and
demodification costs, we excluded such costs from the in-house overhead pool and, therefore,
believe that including them in the contractor rates would invalidate the comparisons. Concerning
the Twin Otter that was damaged during maintenance, we acknowledge that our comparison
should compensate for the reduction in flight hours, and have adjusted our calculation of the in-
house hourly rate to equal that of NOAA’s other Twin Otter.

The cost ineffectiveness of NOAA’s 10 light aircraft is substantiated by NOAA’s own
calculations of the full costs that it provided in its written response (see Appendix E, page 17).
Even after excluding double counting of overhead and correcting the cost of NOAA’s Twin Otter
to account for downtime, NOAA’s own calculations of full costs are, on average, 33 percent
more than our estimates of contractor hourly rates (see Appendix D, page 40).



                                                 iv
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




We also reaffirm our conclusion that AOC does not recover the full cost of reimbursable
agreements with outside agencies. The focus of NOAA’s response is that cost underrecovery is
attributable to the waiving of costs on interagency reimbursable projects that are beneficial to
NOAA. However, the primary reason why AOC does not recover the full cost of interagency
reimbursable agreements is because it underbills these agencies for costs associated with the light
aircraft, not because it waives certain charges. In fact, the total waived costs on the four sampled
reimbursable projects included in our review account, on average, for only 6 percent of full in-
house costs. More importantly, we are concerned that internal control weaknesses in determining
billing rates and in ensuring the completeness of billing statements submitted to reimbursable
customers contribute to the cost underrecovery.

We agree that the shared use of resources to acquire data can be beneficial to both NOAA and the
sharing agency. Accordingly, we reduced full in-house costs for the allowable waived NOAA
support costs on the four sampled interagency projects. However, even after our adjustments for
allowable waived costs, AOC only recovered 41 percent of the full in-house cost to operate the
NOAA light aircraft in fiscal year 1996.

NOAA’s response to the findings and our related comments are highlighted in the body of the
report. Appendix D contains a detailed summary of NOAA’s response and related OIG
comments, and NOAA’s complete reply is included as Appendix E.




                                                 v
NOAA’s Light Aircraft Fleet                                                                          Audit Report
Should Be Privatized                                                                                 August 1998




                                               INTRODUCTION

NOAA established the Aircraft Operations Center (AOC) in 1983 to supply mission-ready
aircraft and personnel for its five program offices. AOC, a component of the Office of NOAA
Corps Operations (ONCO), is NOAA’s major flight operations group, with responsibility for
gathering atmospheric, oceanographic, and other data for such programs as hurricane and major
storm research, nautical and aeronautical charting, climate and global change, and snow and
aerial surveys. It also provides aircraft support services, on a reimbursable basis, to other federal
agencies.

AOC is located at MacDill Air Force Base, near Tampa, Florida, and operates a fleet of
14 aircraft – two heavy aircraft, a mid-size jet, eight light fixed-wing aircraft, and three
helicopters – which are deployed on worldwide operations, and based at four major U.S.
locations.1 The heavy aircraft, averaging over 20 years old, are used for meteorologic and
oceanographic research; the light fixed-wing aircraft, averaging over 15 years old, for the coastal
mapping, airport obstruction charting, aerial survey, and flight edit programs; and the helicopters,
averaging 17 years old, for the hydrographic survey program. The mid-size jet, a Gulfstream
G-IV SP, was recently acquired and future missions include hurricane reconnaissance, weather
research, global climate studies, air chemistry, satellite validation, and remote sensor
development. AOC is staffed by approximately 80 people who work in its six operating units.
They are responsible for operating the aircraft and facilities, managing the personnel and budget,
chartering additional aircraft, and performing various other activities in support of NOAA
aircraft programs. During fiscal year 1996, AOC’s base budget was $9.2 million, augmented by
reimbursable agreements totaling $1.75 million for aircraft work conducted for both NOAA and
other federal agencies. AOC’s base budget increased to $10 million in fiscal year 1997,
supplemented by reimbursable agreements totaling $2.3 million. Seventy-three percent of the
increase in reimbursable funding was attributable to the services of the Gulfstream G-IV SP jet
on the Fronts and Atlantic Storm Tracks Experiment.

AOC’s aircraft are a small component of a large federal fleet of civilian aircraft, which has been
the subject of recent studies. In December 1996, the President’s Council on Integrity and
Efficiency (PCIE) reviewed the management of the federal civilian aircraft fleet and found that it



         1
            See Appendix A for more information about individual NOAA aircraft. For purposes of discussion,
when we refer in this report to NOAA’s group of “light aircraft,” we include its eight light fixed-wing aircraft and
three helicopters.

                                                          1
NOAA’s Light Aircraft Fleet                                                                     Audit Report
Should Be Privatized                                                                            August 1998




cost the government in excess of $1 billion annually to operate its aircraft programs.2 However,
information developed by PCIE documented that the agencies’ operating costs are sometimes
understated. Several agencies omitted reporting costs of certain aspects of their operations, and
some did not report on the operating costs for several of their aircraft. Because many of these
costs are commingled with general agency program costs, it was not possible to establish the
extent of the understatement, although PCIE stated that it is certainly in the multimillion dollar
range. Additional studies of operational efficiencies were commissioned by the General Services
Administration (GSA), which coordinates federal agency aircraft management and cost reporting.
These studies reported opportunities to reduce costs by $92 million annually if most agencies
consolidated their operations and entered into sharing arrangements.

It is important that federal programs operate as effectively and efficiently as possible. The
Congress has concluded that waste and inefficiency in federal programs undermine the
confidence of the American people in the government and reduce the federal government’s
ability to address adequately vital public needs.3 In addition, the Administration’s National
Performance Review notes that Americans want to “get their money’s worth” and have a
government that is more businesslike and better managed. To achieve these ends, the
government must regularly reevaluate its operations, considering a wide range of options,
including consolidation, restructuring, and contracting out.

Purpose and Scope of Audit

The purpose of our audit was to determine whether outsourcing is a more cost-effective
alternative to in-house operation in meeting NOAA’s aircraft requirements. Specifically, our
audit objectives were to determine for fiscal year 1996 the (1) full in-house cost to the
government to operate each of the NOAA-owned aircraft; (2) private contractor/other
government agency cost to operate the same or comparable aircraft; and (3) cost effectiveness of
the NOAA-owned aircraft.

We limited the scope of our cost comparisons to NOAA’s eight light fixed-wing aircraft and its
two Bell 212 helicopters that were in operation in fiscal year 1996. Excluded from our
comparisons were NOAA’s (1) Gulfstream G-IV SP jet, (2) Hughes 369/500D helicopter, and
(3) two Lockheed WP-3D Orions. The first two were not in service during fiscal year 1996, and


        2
          President’s Council on Integrity and Efficiency Combined Report on the Federal Civilian Agencies’
Aircraft Management Programs, Report No. A43006/O/W/F97011, December 16, 1996.

        3
            Public Law 103-62, August 3, 1993, Government Performance and Results Act of 1993 (GPRA).

                                                       2
NOAA’s Light Aircraft Fleet                                                                Audit Report
Should Be Privatized                                                                       August 1998




the Orions possess unique capabilities not comparable at this time with aircraft available in the
private sector or from other government agencies. We reviewed relevant Office of Management
and Budget (OMB) guidelines and AOC cost reports submitted to GSA; examined cost data,
reimbursable billing statements, and NOAA’s task plans; analyzed documents provided by an
aviation industry cost evaluator; and interviewed officials and staff from ONCO, AOC, the
private sector, and other federal agencies, including GSA and the Departments of the Interior and
Agriculture. We also reviewed information provided by NOAA’s budget and finance offices.

The audit was conducted at NOAA’s headquarters in Silver Spring, Maryland, and at AOC’s
offices on MacDill Air Force Base. The field work for this audit began in December 1996, was
generally completed in November 1997, and covered NOAA-owned aircraft costs for fiscal year
1996.

Our audit included tests to determine AOC’s compliance with applicable laws and regulations
and a review of relevant internal controls. Applicable laws and regulations included the
Government Performance and Results Act of 1993, OMB Circulars A-76, Performance of
Commercial Activities, and A-126, Improving the Management and Use of Government Aircraft,
as well as various federal, departmental, and NOAA regulations that call for full recovery of
costs, both direct and indirect, incurred in providing services for others. We also assessed
relevant internal controls, including AOC’s procedures for developing the full in-house cost of its
aircraft and for billing interagency sponsors for reimbursable work. The results of our
compliance and internal control reviews are discussed in the body of the report.

During our audit, we relied upon computer-generated data from NOAA’s Financial Information
Management System (FIMA). An independent certified public accounting firm assessed internal
controls over NOAA’s FIMA as part of its audit of the agency’s fiscal year 1996 financial
statements and reported material weaknesses in automated data processing control and security
that NOAA will correct when its new integrated financial management system is fully
implemented.4 However, nothing came to our attention during our review of the FIMA data to
indicate that it was not sufficiently relevant and reliable for our specific audit objectives.

The audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department of Commerce Organization Order 10-13, dated May 22, 1980, as amended.




       4
           Audit of NOAA’s FY 1996 Financial Statements, FSC-8841-7-0001, February 1997.

                                                     3
NOAA’s Light Aircraft Fleet                                                              Audit Report
Should Be Privatized                                                                     August 1998




                             FINDINGS AND RECOMMENDATIONS

I. NOAA SHOULD PRIVATIZE ITS LIGHT AIRCRAFT SERVICES SUPPORT

For fiscal year 1996, the full in-house costs to operate NOAA’s fleet of 10 light aircraft averaged
42 percent more than the costs of operating similar aircraft available in the private sector. As a
result of these in-house inefficiencies, NOAA could have saved $1.9 million in operating costs or
flown an additional 1,840 program hours if it had used the private sector. Although there are
several factors that contribute to the higher AOC costs, the most significant one is NOAA’s
inability to achieve certain economies of scale that are normally associated with aircraft available
in the private sector. As noted earlier, OMB Circular A-76 states that the government shall not
carry on any activity to provide a commercial service if the service can be procured more
economically from a commercial source.

A.   NOAA Light Aircraft Are More Expensive to Use
     Than Those of Private Contractors

NOAA’s fleet of 10 light aircraft were 42 percent more costly to operate during fiscal year 1996
than aircraft available in the private sector. To determine cost effectiveness, we first identified
NOAA’s in-house cost for each of its 12 active aircraft.5 We did not include in our cost analysis
NOAA’s Gulfstream G-IV jet, which NOAA did not schedule for its first mission use until fiscal
year 1997, and its Hughes 369/500D helicopter, which was in storage. Then we compared the in-
house costs of its eight light fixed-wing aircraft and two Bell helicopters with the rates for similar
aircraft available from private contractors. Although we included NOAA’s two hurricane
research aircraft in our calculation of in-house costs, we did not include them in our comparisons
because they are unique and reportedly similar aircraft are not currently available in the private
sector.

In our analysis of NOAA’s in-house costs for its aircraft, our objective was to account for the full
cost to operate the NOAA-owned aircraft. This included the costs from all appropriated and
reimbursable funds used to operate, support, maintain, and administer aircraft operations for the
two heavy aircraft, eight light aircraft, and two helicopters that were in operation during fiscal
year 1996. Only by analyzing the costs of NOAA’s AOC, its fleet of 12 active aircraft, ONCO,
and the Commissioned Personnel Center (CPC) could we ensure that we were capturing all
relevant expenses.


       5
           See Appendix A for more information about NOAA-owned and operated aircraft.

                                                      4
NOAA’s Light Aircraft Fleet                                                                  Audit Report
Should Be Privatized                                                                         August 1998




There is growing sentiment within the federal government that Congress and federal executives
be provided with reliable and timely information on the full cost of operating federal programs.
Then, informed decisions concerning resource allocation and authorizing and modifying
programs can be made. In July 1995, the Federal Accounting Standards Advisory Board issued
Statement of Federal Financial Accounting Standards No. 4. According to this statement,
federal entities should report the full costs of resources used to produce their outputs. This
includes direct and indirect costs that contribute to the output, regardless of funding sources. It
also includes costs of supporting services provided by other responsibility segments or entities.

The methodology we used in our analysis of full in-house costs (full costs) per aircraft consisted
of first identifying aircraft-specific (direct) costs, and then overhead (indirect) costs. Aircraft-
specific costs include fuel and lubrication, crew, maintenance, insurance, and depreciation. For
our cost analysis, we included the aircraft-specific costs that NOAA reported to GSA for fiscal
year 1996 through GSA’s Federal Aviation Management Information System (FAMIS).
Overhead costs, according to GSA’s Government Aircraft Cost Accounting Guide (Guide)6,
include operations overhead and administrative overhead. We did not rely on the overhead costs
that NOAA reported to GSA through FAMIS; instead, we computed overhead separately (see
Appendix B).

Our analysis of the overhead costs that AOC reported to GSA indicated a basic AOC
misunderstanding of GSA definitions of overhead, resulting in overhead misclassifications and
omissions. For example, in computing operations overhead, AOC included the salaries of
fabrication shop personnel. However, the fabrication shop serves AOC aircraft, so we believe
the fabrication shop salaries are direct costs for these aircraft, not operations overhead. We also
noted that in computing administrative overhead AOC did not account for costs associated with
the support provided by ONCO and CPC. The definition of administrative overhead in GSA’s
Guide indicates that the ONCO and CPC support costs were legitimate and should have been
included.

AOC’s reported aircraft-specific costs and our recalculation of overhead costs provided a more
realistic cost to operate each of the 12 active NOAA aircraft for fiscal year 1996. The following
graph depicts the cost per aircraft, broken down into aircraft-specific and overhead costs.




        6
         Version No. 4, January 15, 1995, developed by The Interagency Committee for Aviation Policy for GSA
(see Appendix B for GSA’s definitions of operations and administrative overhead).

                                                     5
NOAA’s Light Aircraft Fleet                                                                                                                                                                                                                                                     Audit Report
Should Be Privatized                                                                                                                                                                                                                                                            August 1998




                                                                                                   FY 96 Operating Cost
                                                                                                     Of NOAA Aircraft
           $/Flight Hour
            9000                                                                                                                                                                                                                                                           O v e rhead
                             8,006
            8000
                                                    7,004                                                                                                                                                                                                                  Aircraft
            7000                                                                                                                                                                                                                                                           Specific

            6000
            5000
            4000
            3000                                                           2,606
                                                                                                1,955 1,955 1,816
            2000                                                                                                                                            1,594
                                                                                                                                                                                 1,219
                                                                                                                                                                                                        807
            1000                                                                                                                                                                                                               564
                                                                                                                                                                                                                                                 312                244
                0
                                                                                                                                                                                             Shrike (N47RF)

                                                                                                                                                                                                              Shrike (N51RF)
                                                                                                                                   Bell 212 (N60RF)

                                                                                                                                                      Bell 212 (N61RF)
                                                                  Citation II (N52RF)




                                                                                                                                                                         Commander (N53RF)
                                                                                        Twin Otter (N48RF)




                                                                                                                                                                                                                                     Renegade (N64RF)

                                                                                                                                                                                                                                                        Renegade (N65RF)
                                                                                                             Twin Otter (N485RF)
                    Lockheed P-3 (N42RF)

                                           Lockheed P-3 (N43RF)




Next, we divided the full cost for each aircraft by the actual hours flown, as reported to GSA,
during fiscal year 1996. This provided NOAA’s full cost per hour to fly each of the 12 aircraft
during the fiscal year. We then compared NOAA’s full cost per flight hour for each of its eight
light aircraft and two Bell helicopters with rates charged by private-sector companies using
similar aircraft. Commercial rates were obtained directly from the private-sector companies or
through the Department of the Interior’s Office of Aircraft Services (OAS). OAS enters into
aircraft service contracts with private-sector companies for bureaus within the Interior and other


                                                                                                                                                                     6
NOAA’s Light Aircraft Fleet                                                                          Audit Report
Should Be Privatized                                                                                 August 1998




federal agencies. For each platform we obtained several commercial rates, if available, and
calculated an average rate for comparison.

On average, NOAA’s eight light fixed-wing aircraft and two Bell helicopters were 42 percent
more expensive to operate when compared with commercial hourly rates.7 Full cost hourly rates
significantly exceeded commercial rates for the eight light fixed-wing aircraft. The full cost rates
calculated for the two Bell helicopters, used exclusively for interagency reimbursable work, were
price competitive with the private sector.8 However, the focus must not be on the cost-
effectiveness rates of the individual light aircraft but on their average rate as a group because in
the group full costs – direct and indirect – are taken into account. Also, OMB Circular A-76
states that the general policy of the government is to rely on commercial sources to supply the
products and services the government needs. Table 1 (see page 8) shows the results of our
comparisons of the full cost NOAA and private contractor hourly rates for the group of 10 light
aircraft.

We also found that private-sector companies are capable and available to support NOAA
missions. For example, the National Marine Fisheries Service (NMFS) in La Jolla, California,
uses a private sector contractor to provide aircraft services in support of marine mammal surveys.
When we compared AOC’s cost per hour to that for the private sector contractor, we found that it
was more cost-effective for NOAA to use the contractor.

To perform marine mammal surveys, AOC uses both of its Twin Otter aircraft (N48RF and
N485RF) at a cost per hour of $1,955. In contrast, survey work contracted out by the NMFS in
La Jolla cost $351 per hour.9 This comparison clearly demonstrates NOAA’s inefficiencies in
providing aircraft services. As another example, NOAA requires aerial photogrammetry to
complete flight edit, coastal mapping, and airport obstruction work. The private sector provides
expertise in this area. Specifically, the Management Association for Private Photogrammetric



         7
            We also compared our calculated full costs for NOAA’s light aircraft with the aircraft industry standard.
The results of our comparisons, included in Appendix C, showed that the full cost to operate NOAA’s fixed-wing
light aircraft averaged 44 percent more than the industry’s standard cost.

         8
           See Appendix C, which explains that differences in depreciation methodology between the commercial
sector and the federal government play a significant role in making the Bell helicopters appear to be cost
competitive with the private sector.
         9
           Includes a NOAA contract administration charge of 8 percent of the contractor’s hourly rate. See
footnote a, Table 1.

                                                          7
NOAA’s Light Aircraft Fleet                                                                                                 Audit Report
Should Be Privatized                                                                                                        August 1998




                                                 Table 1
                                  NOAA’s Light Aircraft and Helicopters:
                               Comparison of OIG-Calculated Full Hourly Cost
                                   With Private Contractor Hourly Rates


                                                                              Hourly Cost
                                                                                                                              Percent
                                                                                                     Full Cost               Full Cost
                                                          OIG-                                     Over (Under)            Over (Under)
                                                        Calculated                                  Contractor              Contractor
                    Aircraft                            Full Cost             Contractora              Cost                    Cost

 N53RF/Gulf Turbo Commander 690A                           $1,219                  $ 688                  $ 531                    77.26%

 N64RF/Lake Renegade                                           312                   205b                   107                    51.91

 N65RF/Lake Renegade                                           244                   205b                     39                   19.11

 N61RF/Bell 212 Helicopter                                   1,594                 1,836                   (242)                  (13.17)

 N60RF/Bell 212 Helicopter                                   1,816                 1,836                     (20)                   (1.08)

 N47RF/Aero Commander Shrike                                   807                    366                   441                  120.35

 N51RF/Aero Commander Shrike                                   564                    366                   198                    53.92

 N52RF/Cessna Citation II                                    2,606                 1,436                  1,170                    81.44

 N485RF/de Havilland Twin Otter                              1,955                 1,142                    813                    71.20

 N48RF/de Havilland Twin Otter                              1,955c                 1,142                    813                    71.20.

 Light Aircraft Average Percentaged                                                                                                41.74%
 a
  Includes an administrative charge of 8 percent of the contractor’s hourly rate for NOAA contractor oversight. The administrative charge is
 the same rate charged by OAS and the same rate used by AOC in its 1995 draft in-house aircraft cost study.
 b
  The commercial rate for the two Lake Renegades was available from only one contractor. Private sector owner-operators told us that
 contractor rates are difficult to obtain because the Lakes have limited practical use and are mainly a recreational platform. Also, AOC’s
 1995 in-house cost study included a commercial rate of $173/hour.
 c
  Actual OIG-calculated full-cost is $3,591/hr. Because this aircraft experienced significant downtime attributable to damage while
 undergoing maintenance, OIG-calculated full-cost rate adjusted to equal that of N485RF.

 d
 Calculation based on the total of the “Full Cost Over (Under) Contractor Cost” column, $3,850, divided by the total of the “Contractor
 Hourly Cost” column, $9,222.




                                                                       8
NOAA’s Light Aircraft Fleet                                                                    Audit Report
Should Be Privatized                                                                           August 1998




Surveyors compiled a capability study10 of over 105 firms across the country that have the talent
and qualifications to provide aerial photogrammetry. In fact, one of the firms from the study is
currently under contract performing coastal mapping aerial photography. Furthermore, this same
contractor has experience in flight edit and airport obstruction work.

B.    Economies of Scale Is the Primary Factor Leading
      to the Higher NOAA Cost

Although several factors are responsible for the higher cost to operate the NOAA aircraft as
compared with the private sector, the most significant is NOAA’s inability to achieve certain
economies of scale in its in-house aircraft operations. NOAA’s operating costs include
significantly large support costs incurred by ONCO and CPC, as well as by AOC. Private
contractors of light aircraft generally do not incur such significantly large overhead costs and, in
combination with their marketing efforts to increase the number of billable hours, are able to
lower their hourly charge for aircraft services.

The lower relative activity levels of the NOAA light aircraft are evident from the AOC-prepared
“FY 1996 Aircraft Flight Hour Analysis.” This analysis breaks down AOC’s total number of
actual flight hours by aircraft and provides the number of hours approved by the NOAA Aircraft
Allocation Council (NAAC). NAAC is the authority within NOAA for policy matters regarding
the allocation of operational NOAA and private-sector company aircraft time to support NOAA’s
programs and missions, and it establishes relative priorities for the use of NOAA and private-
sector aircraft resources. NAAC voting members include NOAA’s Deputy Under Secretary for
Oceans and Atmosphere, five Assistant Administrators, and directors of the offices of Global
Programs, Coastal Ocean Programs, and ONCO. Of the 4,223 flight hours that NAAC approved,
NOAA’s light aircraft flew only 3,257, or 23 percent below the approved rate. Also, the AOC
analysis shows that two aircraft, the Lake Renegades, flew about one-half of their total yearly
hours for training, or non-billable, purposes. In addition, the Hughes 369/500D helicopter flew
no hours during fiscal year 199611. During our visit to AOC in December 1996, we observed that
this aircraft was in storage. AOC officials explained that there was insufficient customer demand
for its services to keep it maintained and ready for use. Because there is no apparent need for the
Hughes 369/500D helicopter, we believe that it should be released, along with related spare parts,
in accordance with OMB Circular A-126.


        10
             Member Firm Capability Study, Management Association for Private Photogrammetric Surveyors, 1995.
        11
           Also, the AOC-prepared “Flight Hour History” indicates that the Hughes 369/500D helicopter flew only
6.4 hours during fiscal year 1995.

                                                       9
NOAA’s Light Aircraft Fleet                                                              Audit Report
Should Be Privatized                                                                     August 1998




Other factors contribute to the higher AOC cost per flight hour for its light aircraft. One of these
factors was acknowledged by NOAA in its “FY 1993 Interim Report” prepared for the
Department by the NOAA Aircraft Modernization Task Force. The report states that as the
NOAA aircraft age, operational costs rise substantially. According to an AOC-prepared
document, the average age of NOAA’s fixed-wing light aircraft and helicopters is over 15 years,
and two of these aircraft are at least 21 years old. In our opinion, as NOAA’s fleet becomes
older, the aircraft will require even more time for maintenance, the amount of “downtime” will
increase, and operational time will decrease. Another factor that contributes to the higher AOC
cost per flight hour for its light aircraft, in our opinion, is the lack of adequate incentive to
control costs because of the availability within the government of funds to cover rising costs,
such as from reprogramming. Higher training costs associated with NOAA Corps’ policy of
periodic rotation of pilots to other positions within NOAA programs and the need to retrain
replacement officers may also contribute to NOAA’s higher hourly rates.

In addition, NOAA managers may not be fully aware of the higher cost to operate their aircraft
because they have not conducted an approved cost comparison for fiscal year 1996 to justify
retention of in-house aviation services. ONCO officials informed us that an OMB Circular A-76
cost comparison has never been completed for any of the NOAA aircraft although AOC did
complete in-house cost studies in 1993 and 1995. However, these cost studies were not
submitted to GSA or OMB. In accordance with OMB Circular A-126, Improving the
Management and Use of Government Aircraft, dated May 22, 1992, agencies shall review
periodically the continuing need for all of their aircraft and the cost effectiveness of their aircraft
operations in accordance with the requirements of OMB Circular A-76. The circular also
requires that agencies report any excess aircraft and release all aircraft that are not fully justified
by these reviews. A copy of each agency review is supposed to be submitted to GSA when
completed and to OMB with the agency’s next budget submission.

C.   Federal Policy Prohibits Uneconomical Government Activity

OMB Circular A-76 establishes federal policy regarding the performance of commercial
activities. It states that the federal government should not compete with its citizens and should
rely on commercially available sources to provide commercial services. It concludes by asserting
that the government should not start or carry on any activity to provide a commercial service if
the service can be procured more economically from a commercial source.
Attachment A to the circular includes examples of the kinds of government activities that are
available from the commercial sector. Among these are maintenance, overhaul, repair, and
testing of aircraft and aircraft components; scientific data studies; and mapping, charting and
geological surveys. With the exception of NOAA’s two hurricane research aircraft and its


                                                  10
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




recently acquired jet, which offer unique services not currently available commercially, we
believe that this federal policy applies to NOAA’s aircraft.

D.   Operation of NOAA’s Light Aircraft Costs Government
     Valuable Program Funding and Flight Hours

During fiscal year 1996, the various NOAA and interagency programs that AOC services could
have saved $1.9 million, or flown an additional 1,840 hours, if they had used similar private-
sector services. Annual cost savings are based on our full cost calculations of $4.6 million in
fiscal year 1996 to operate 10 light aircraft, less the $2.7 million cost if government programs
had procured these services from commercial sources. The additional 1,840 flight hours
available through the private sector is an increase of 54 percent from the total of 3,421 in-house
hours flown.

With increasingly limited budgets, government programs are being forced to do more with less.
Lost program funding and flight hours are conditions that government managers can no longer
tolerate. This reality is especially important for those NOAA program offices that need light
aircraft and helicopters to meet their requirements.

E.   Conclusion

Program offices should rely on the private sector to provide required light aircraft services. This
is because NOAA’s group of 10 light aircraft is significantly more costly to operate when the true
or full costs are compared with the private sector. As a result, AOC inefficiencies have
unnecessarily increased the cost of government programs or cost them valuable flight hours that
might otherwise have been available for mission-related research. Providing base funding to
AOC to meet the NOAA program offices’ aircraft requirements is not in the best interests of the
program offices or the government.

NOAA must restructure its aircraft services support to be more cost-effective and better service
the interests of the program offices. This should consist of retaining its two heavy aircraft and
one mid-size jet; discontinuing the operation of, and releasing, its light fixed-wing aircraft and
helicopters; establishing written NOAA policy that program offices are to rely on the private
sector, when economically advantageous, to provide all aircraft services support; and transferring
base funding for all NOAA aircraft operation to the program offices to procure support services
from the most cost-effective private-sector source. Pending transfer of funding and release of
aircraft, NOAA should report the full cost of each aircraft in accordance with federal accounting
guidelines.


                                                11
NOAA’s Light Aircraft Fleet                                                                          Audit Report
Should Be Privatized                                                                                 August 1998




This restructuring will result in the reassignment of appropriate NOAA personnel and increased
aircraft services responsibilities for program managers and contracting officers. However, the
restructuring will provide important benefits to NOAA including, among others,

      !           greater control by program managers of flight hour funding,

      !           increased cost-effectiveness through outsourcing or additional flight hours
                  available for research,

      !           transfer of full-time-equivalent positions to high priority positions in the
                  Department,

      !           streamlined lease requirements for aircraft facilities12, and

      !           opportunities for greater choices of research platforms and strategies.

F.    NOAA Response

NOAA does not agree with our conclusion that its group of 10 light aircraft are significantly
more costly to operate when their true or full costs are compared with the private sector. NOAA
believes that data in the draft report were incomplete. There are three areas of cost in our
calculations, it believes, which appear incorrect. These are the costs associated with overhead,
daily use or standby time, and modification and demodification of the aircraft necessary to meet
NOAA’s project requirements. NOAA asserts that our calculation of full in-house costs included
double counted or other inappropriate overhead and our estimates of contractor hourly rates
excluded costs for daily use or standby time and modification and demodification of the aircraft.
Also, NOAA stated that our full in-house cost for one of its two Twin Otter aircraft was higher
than normal because of a reduction in flight hours attributable to damage while undergoing
maintenance.

In response to the draft report, NOAA developed for each of the light aircraft its own comparison
of full in-house costs with contractor rates. After excluding double counting of NOAA overhead
costs, including daily use or standby time and aircraft modification costs for contractors, and



          12
            Although the Air Force currently provides AOC with rent-free use of its hangar at MacDill Air Force
Base, as the facilities needs of the Air Force change, so can the status of rent-free use of the hangar. See Appendix
B, “Methodology for Assigning the Costs,” Part A4a(2).

                                                         12
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




correcting the cost of NOAA’s Twin Otter to account for downtime during maintenance on the
aircraft, NOAA concludes that its aircraft operations cost 32 percent less than contractors.

G.   OIG Comments

We reaffirm our conclusion that NOAA’s group of 10 light aircraft are significantly more costly
to operate when their true or full costs are compared with the private sector. Regarding
overhead, we obtained evidence that indicates that some overhead was double counted,
supporting a net decrease to the amount included in the draft report. We have therefore adjusted
our calculation of full in-house cost to properly account for these matters. Regarding daily use or
standby time, NOAA has not provided evidence which demonstrates that such charges are
routinely included in the provisions of current NOAA contracts for aircraft support. We believe
that including such costs in contractor rates is inappropriate and have identified specific
examples of NOAA projects where contractors do not charge for daily use or standby time.
Regarding modification and demodification costs, we excluded such costs from the in-house
overhead pool and, therefore, believe that including them in the contractor rates would invalidate
the comparisons. Also, as discussed in this report, we found that private-sector companies have
the capability to support NOAA missions. These companies are in the business of providing the
types of light aircraft support services which NOAA and other customers require and, by
necessity, have aircraft fully equipped to meet specific requirements. Concerning the Twin Otter
that was damaged during maintenance, we acknowledge that our comparison should compensate
for the reduction in flight hours, and have adjusted our calculation of the in-house hourly rate to
equal that of NOAA’s other Twin Otter.

But probably of equal, if not greater, note is the fact that the cost ineffectiveness of NOAA’s
group of 10 light aircraft is substantiated by NOAA’s own calculations of the full costs that it
provided in its written response (see Appendix E, page 17). Even after excluding double
counting of overhead and correcting the cost of NOAA’s Twin Otter to account for downtime,
NOAA’s full costs are, on average, 33 percent more than our estimates of contractor hourly rates
(see Appendix D, page 40).

H.   Recommendations

We recommend that the Under Secretary for Oceans and Atmosphere:

1.   Retain the two Lockheed WP-3D Orions and the Gulfstream G-IV SP jet.




                                                13
NOAA’s Light Aircraft Fleet                                                                          Audit Report
Should Be Privatized                                                                                 August 1998




2.    Discontinue operating the eight fixed-wing light aircraft and the three helicopters
      (including the inactive Hughes 369/500D helicopter) and release them, in accordance with
      OMB Circular A-126, along with related spare parts.

3.    Fully comply with established written NOAA policy that program offices are to rely on the
      private sector, when economically advantageous, to provide aircraft services support.

4.    Transfer AOC base funding for aircraft support to NOAA’s line organizations, and
      implement procedures to ensure that line organizations procure aircraft support from the
      most cost-effective private-sector sources.

5.    Pending release of aircraft and transfer of funding, report the full cost of each aircraft in
      accordance with federal accounting guidelines.

I.    Funds to Be Put to Better Use

As a result of implementing our recommendations, NOAA will be able to put up to $11.8 million
of government funds to better use. About $3.8 million13 results from outsourcing over a two-year
period, while up to $8 million14 will be generated from cash receipts to the U.S. Treasury if
NOAA’s 11 light aircraft are sold. These amounts could increase or decrease during
implementation of the recommendations depending on the cost-effectiveness of program offices
in negotiating prices with contractors, the level of funding appropriated for aircraft services, the
equipment in and condition of the aircraft, and whether NOAA’s aircraft are transferred to other
federal agencies or donated to state agencies or other non-profit organizations.




         13
           Annual cost difference of $1.9 million is based on our calculated full cost of $4.6 million in fiscal year
1996 to operate NOAA’s 10 light aircraft, less $2.7 million if program offices had procured these services from
commercial sources. We limited our calculations to a two-year period, but the cost benefits to the government
continue indefinitely.

         14
           Cash receipts to the U.S. Treasury of up to $8 million for the 11 NOAA-owned light aircraft are based
on the average retail selling prices included in the Aircraft Bluebook Price Digest, Fall 1997, Vol. 97-3, Intertec
Publishing Corporation, Overland Park, Kansas.

                                                         14
NOAA’s Light Aircraft Fleet                                                                       Audit Report
Should Be Privatized                                                                              August 1998




II.   NOAA SHOULD DISCONTINUE USING ITS LIGHT AIRCRAFT
      FOR INTERAGENCY REIMBURSABLE PROJECTS

As part of our review of the full cost to operate the NOAA-owned aircraft, we found that AOC is
not recovering the full cost for work it performs under reimbursable agreements with outside
government agencies. Federal, departmental, and NOAA policy call for full cost recovery – both
direct and indirect – on all reimbursable projects. Internal control weaknesses in determining
reimbursable billing rates have resulted in the underrecovery of costs. NOAA should discontinue
its interagency reimbursable projects, not only because its light aircraft are more expensive to
operate as compared with the private sector, but also because less-than-full-cost recovery, in
effect, subsidizes other agency programs with NOAA appropriations. In fiscal year 1996, NOAA
appropriations funded well over half the total cost of most sampled aircraft interagency
reimbursable agreements, resulting in a cost underrecovery of $573,064 and the diverting of
essential resources away from its core mission.

A.    Full Cost Exceeds Recovered Cost for NOAA-Owned Aircraft

The full cost15 to operate the NOAA-owned aircraft assigned to reimbursable projects exceeded
the cost that NOAA recovered from outside government agencies.16 For fiscal year 1996, NOAA
executed 13 reimbursable agreements for aircraft services – seven with outside agency sponsors
and six with NOAA program offices – amounting to $1.75 million. We selected four
agreements, funded at $1.1 million, with outside agency sponsors for analysis. Of the three
interagency agreements not reviewed, two did not have reimbursable hours charged in fiscal year
1996 and one involved NOAA’s use of its P-3 aircraft, a platform we believe NOAA should
continue to operate at this time.

For each of the agreements selected, we reviewed the reimbursable project task plan and AOC
billing statements, which break down charges by individual aircraft. NOAA used multiple
aircraft for three of four reimbursable projects. We compared the various reported aircraft hourly
rates – billed, GSA reported, and as determined by our review (full cost).

Our analysis showed significant disparities between the three hourly rates. On average, NOAA’s
hourly rates billed to reimbursable sponsors were 44 percent of the hourly rates reported to GSA


        15
             Based on the OIG calculations, discussed beginning on page 4 of this report.

        16
              With one exception, even the costs that NOAA reported to GSA for these same aircraft exceeded the
cost that it recovered from these sponsors. See Table 2.

                                                         15
NOAA’s Light Aircraft Fleet                                                                      Audit Report
Should Be Privatized                                                                             August 1998




and 41 percent of the hourly rates based on full cost. Tables 2 and 3 summarize our comparisons
of the hourly rates for operating costs.



                                              Table 2
                              Recovered Cost vs. GSA-Reported Cost
                      Fiscal Year 1996 Interagency Reimbursable Agreements

                                                                                Hourly Rate       Billed as a
                                                               Hourly Rate      Reported to       % of GSA-
       Agreement and Sponsor           Assigned Platform         Billed            GSA             Reported

           Marine Mammal                     N48RF
                                                                  $ 467            $ 2,624              18%
           RP3A35/Navy                      Twin Otter

           Marine Mammal                     N485RF
                                                                     467             1,435              33
           RP3A35/Navy                      Twin Otter

          Hurricane Response                 N48RF
                                                                     511             2,624              19
           RP3A36/Interior                  Twin Otter

          Airport Obstruction               N52RF
                                                                     736             1,916              38
            RK6C09/FAA                   Cessna Citation

          Airport Obstruction                N53RF
                                                                     567               907              63
            RK6C09/FAA                  Turbo Commander

             SHOALS                          N60RF
                                                                   1,284             1,338              96
     RP3A25/Army Corps Engineers       Bell 212 Helicopter

             SHOALS                          N61RF
                                                                   1,297             1,204             108
     RP3A25/Army Corps Engineers       Bell 212 Helicopter


 Total Average*                                                                                        44%


 *
  Calculation based on the total of the hourly rates billed, $5,329, divided by the total of the hourly rates
 reported to GSA, $12,048.




                                                         16
NOAA’s Light Aircraft Fleet                                                                       Audit Report
Should Be Privatized                                                                              August 1998




                                              Table 3
                                    Recovered Cost vs. Full Cost
                      Fiscal Year 1996 Interagency Reimbursable Agreements

                                                               Hourly Rate       Hourly Rate      Billed as a %
       Agreement and Sponsor           Assigned Platform         Billed           Full Cost       of Full Cost

           Marine Mammal                     N48RF
                                                                  $ 467            $ 1,944a            24%
           RP3A35/Navy                      Twin Otter

           Marine Mammal                     N485RF
                                                                      467            1,944a            24
           RP3A35/Navy                      Twin Otter

          Hurricane Response                 N48RF
                                                                      511             1,955            26
           RP3A36/Interior                  Twin Otter

          Airport Obstruction                N52RF
                                                                      736             2,606            28
            RK6C09/FAA                    Cessna Citation

          Airport Obstruction                N53RF
                                                                      567             1,219            47
            RK6C09/FAA                  Turbo Commander

             SHOALS                           N60RF
                                                                    1,284            1,732a            74
     RP3A25/Army Corps Engineers        Bell 212 Helicopter

             SHOALS                           N61RF
                                                                    1,297            1,541a            84
     RP3A25/Army Corps Engineers        Bell 212 Helicopter


 Total Averageb                                                                                        41%

 a
 Net, after deducting allowable waived NOAA support costs per hour of $11.10 on N48RF, $11.35 on
 N485RF, $83.90 on N60RF, and $52.71 on N61RF. See page 21.
 b
  Calculation based on the total of the hourly rates billed, $5,329, divided by the total of the full cost hourly
 rates, $12,941.




                                                         17
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




B.   Government Policy Calls for Full Cost Recovery

The primary focus of federal, departmental, and NOAA policy is on the full recovery of costs,
both direct and indirect, incurred in providing services for others. At the federal level, 31 U.S.C.
1535 identifies general policies regarding work performed for other agencies. One of these
policies is that payment for interagency reimbursable work shall be “...on the basis of the actual
cost of goods or services provided.” Also, Department of Commerce–Special Studies and Work,
Public Law 91-412, authorizes the Department of Commerce to make special studies, to provide
services, and to engage in joint projects upon the payment of the actual cost of such special work.
Lastly, one of the stated purposes of the Government Performance and Results Act of 1993
(GPRA) is to “...improve the confidence of the American people in the capability of the federal
government, by systematically holding federal agencies accountable for achieving program
results.” If a federal agency does not recover the full cost of projects performed for interagency
sponsors, but instead diverts its own appropriations from its core mission to finance the
shortfalls, it jeopardizes the results of its own programs and violates the intent of GPRA.

Departmental policy also reflects the intent of GPRA. The Department of Commerce
Accounting Principles and Standards Handbook [Chapter 18, Section 6.01] states that the
Department’s policy is to provide special services on a cost reimbursable basis to federal
agencies and others only when undertaking the project will not result in the diversion of
resources to the detriment of the basic programs of the operating unit. Less than full cost
recovery on NOAA’s interagency reimbursable projects diverts NOAA resources intended for its
core mission, thereby placing at risk the NOAA programs.

NOAA policy also addresses cost recovery on reimbursable projects. The NOAA Budget
Handbook [Chapter 2, Section 3.1.b.(4)] states that “It is NOAA policy to recover full costs, both
direct and indirect, for performance of services for others.”

C.   Internal Control Weaknesses Contribute to Cost Underrecovery

Internal control weaknesses in determining reimbursable billing rates have contributed to cost
underrecovery. AOC bills at the completion of each reimbursable project for the actual hours
flown. Billing statements consist of several components – a flight rate; administrative overhead,
pilot salaries, and depreciation, based on fixed daily rates; standard level user charge (SLUC),
future retired pay of commissioned officers (FRPCO), and NOAA Corps support, based on labor
cost; travel and per diem; and aircraft fuel use. We compared the various components of the
billing statement to year-end cost documents and noted several discrepancies. In particular, year-
end cost documents for AOC’s two Twin Otters support a flight rate per hour of $1,720 and
$457, respectively. However, the flight rate billed for both Twin Otters totaled only $302. We

                                                18
NOAA’s Light Aircraft Fleet                                                         Audit Report
Should Be Privatized                                                                August 1998




discussed how the flight rate was calculated with AOC personnel. We were informed that the
rate was determined based on discussions with AOC operations personnel and did not match cost
information provided to GSA through FAMIS nor was it supported by analysis.

AOC internal controls that ensure the completeness of billing statements submitted to
reimbursable customers also have contributed to the cost underrecovery. AOC reported to GSA
costs for operations overhead and insurance for all aircraft assigned to the four sampled
reimbursable projects but omitted these costs on the billing statements. AOC’s internal controls
over its billing procedures should be consistent with, and achieve, full cost recovery on all
reimbursable project agreements with other agency sponsors until NOAA disposes of its light
aircraft.

In addition to internal control weaknesses, another reason costs are not fully recovered on
reimbursable projects is because AOC waives certain expenses. NOAA regulations allow--but
discourage--the waiving of costs associated with reimbursable work. Yet, AOC waived certain
costs in the billing process, including FRPCO, aircraft depreciation, SLUC, and NOAA support
costs on the Scanning Hydrographic Operational Airborne Lidar Survey (SHOALS) and marine
mammal projects, and aircraft depreciation on the hurricane response project.

D.   Cost Underrecovery on Reimbursable Projects Diverts
     NOAA Program Funding

In fiscal year 1996, NOAA appropriations funded well over half the total cost of three of the four
interagency reimbursable agreements included in our sample, resulting in a cost underrecovery
and the diversion of essential resources away from its core mission. Although the full cost, based
on OIG calculations, of the four sampled projects was $1,714,09417, AOC billed sponsors only
$1,141,030, resulting in a cost underrecovery of $573,064. For the sampled projects, this means
that it cost AOC $1.50 for every $1.00 of reimbursable funds that AOC recovered from the
sponsors. The additional cost not recovered from outside agencies was funded from NOAA
appropriations for its core mission. Non-recovered costs accounted for 33 percent of total costs
for the four projects (see charts on page 23).

E.   Conclusion

AOC does not recover the full cost of reimbursable agreements with outside agencies because of
weaknesses in its billing process and to a lesser extent because certain expenses are waived. As a


       17
            After deducting allowable NOAA waived costs of $53,978. See page 21.

                                                     19
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




result, AOC financed a significant percentage of the cost of other agencies’ projects. Cost
underrecovery on reimbursable projects puts at risk projects associated with NOAA’s core
mission. Under GPRA, NOAA is accountable for the efficiency, effectiveness, and results of its
own programs. Therefore, it is essential that NOAA discontinue its interagency reimbursable
work and focus exclusively on preserving funding for its core mission. In the interim, however,
NOAA should complete all current interagency projects and take appropriate actions necessary to
ensure full cost recovery.

F.   NOAA Response

NOAA disagrees with our conclusion. NOAA asserts that although its policy provides for
recovery of full costs, both direct and indirect in some situations, it also allows for waiving of
certain costs when the reimbursable project is beneficial to NOAA. Much of the data obtained
through interagency efforts benefits NOAA programs, and would need to be collected regardless
of the involvement of other agencies. Waiving certain charges to partnering agencies provides an
effective approach for meeting some of NOAA’s data collection needs. Furthermore, the shared
use of resources to acquire data beneficial to NOAA and the sharing agency is consistent with the
National Performance Review and the Administration’s efforts to ensure that all government
resources are used in the most efficient manner possible. Therefore, NOAA disagrees that
waiving of some costs represents an underrecovery of funding when the sharing of resources
provides benefits to NOAA.

G.   OIG Comments

The focus of NOAA’s response is that cost underrecovery is attributable to the waiving of costs
on interagency reimbursable projects that are beneficial to NOAA. However, the primary reason
why AOC does not recover the full cost of interagency reimbursable agreements is because it
underbills these agencies for costs associated with the light aircraft, not because it waives certain
charges. In fact, the total waived costs on the four sampled reimbursable projects included in our
review account, on average, for only 6 percent of the full in-house costs. More importantly, we
are concerned that internal control weaknesses in determining billing rates and in ensuring the
completeness of billing statements submitted to reimbursable customers contribute to the cost
underrecovery. For example, the hourly amount billed to other agencies does not match AOC’s
own cost reports that it provides to GSA.




                                                 20
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




Our report acknowledges that NOAA regulations allow, but discourage, the waiving of costs
associated with reimbursable work. The NOAA Budget Handbook18 states that no waivers of any
elements of cost on reimbursable projects will be made without the prior approval of the Office
of the Comptroller. The Handbook also identifies those costs eligible for waiver as including
NOAA support, depreciation, and SLUC. Depreciation will only be waived when the equipment
used for that particular task is provided by the reimbursing agency or sponsor. SLUC will
normally be waived only if the services are performed in facilities not provided by NOAA.

AOC, however, did not comply with NOAA regulations for the waiving of costs in fiscal year
1996 as it waived costs on three of the four OIG-sampled reimbursable projects in that year. For
example, on the hurricane response project,19 AOC did not receive prior approval from NOAA’s
Office of Comptroller to waive aircraft depreciation costs of $2,192. Because these costs should
not have been waived, we include them in our calculation of full in-house costs for this project in
Table 3. For the two projects that AOC did receive prior approval to waive costs, SHOALS20
and marine mammal,21 some waived costs did not meet the criteria set forth in the NOAA Budget
Handbook. On the SHOALS project, AOC waived aircraft depreciation ($27,636), SLUC
($8,314), FRPCO ($8,247), and NOAA support ($52,936). On the marine mammal project, it
waived aircraft depreciation ($6,028), SLUC ($327), FRPCO ($1,440), and NOAA support
($1,042). According to the criteria, only the NOAA support costs for each of these projects
should have been waived. For SHOALS and marine mammals, the sponsoring agency did not
provide the equipment or the facilities. Therefore, neither AOC aircraft depreciation nor NOAA
SLUC facility charges should have been waived. Regarding the waived FRPCO costs on both
projects, the NOAA Budget Handbook does not specify whether this cost is eligible to be waived.
NOAA’s Budget Execution Office confirmed that waiving FRPCO charged to reimbursable
agreements is not allowable. Therefore, on the SHOALS and marine mammal projects, we
include all waived costs, except for NOAA support, in our calculation of full in-house costs in
Table 3.

We agree that the shared use of resources to acquire data can be beneficial to both NOAA and the
sharing agency. Accordingly, we reduced full in-house costs in Table 3 for the allowable waived


       18
            Chapter 2, Section 3.2e(1).

       19
            Agreement No. RP3A36 with the U. S. Department of the Interior.

       20
            Agreement No. RP3A25 with the U. S. Army Corps of Engineers.

       21
            Agreement No. RP3A35 with the U. S. Navy.

                                                      21
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




NOAA support costs of $52,936 on the SHOALS project and $1,042 on the marine mammal
project. However, even after our adjustments for allowable waived costs, AOC only recovered,
on average, 41 percent of the full in-house cost to operate the NOAA light aircraft in fiscal year
1996. Therefore, we reaffirm our conclusion that NOAA is not recovering full cost and should
discontinue using its light aircraft for interagency reimbursable projects.

H.   Recommendations

We recommend that the Under Secretary for Oceans and Atmosphere:

1.   Discontinue all interagency reimbursable work related to NOAA-owned fixed-wing light
     aircraft and helicopters.

Pending the discontinuance of interagency reimbursable work,

2.   Complete current interagency reimbursable agreements in accordance with NOAA’s stated
     policy of full cost recovery.

3.   Revise AOC’s billing practices to be consistent with, and achieve, full cost recovery on all
     reimbursable agreements with outside sponsors.

4.   As appropriate, immediately amend any current interagency reimbursable agreements not
     based on full cost recovery.

5.   Seek reimbursement, beginning with fiscal year 1996 and where permitted by agreement, of
     the unrecovered full cost balances on all current reimbursable projects.




                                                22
NOAA’s Light Aircraft Fleet                                                                  Audit Report
Should Be Privatized                                                                         August 1998




                     Recovered Cost vs. Non-Recovered Cost
                      For Interagency Reimbursable Projects

           Sponsoring Agency: Navy                       Sponsoring Agency: U.S. Geological Survey

                               $43,328                                               $18,941
                               Recovered Cost 24%                                    Recovered Cost 26%




  $137,055                                           $55,589
  Non-Recovered Cost 76%                             Non-Recovered Cost 74%




            Sponsoring Agency: FAA                       Sponsoring Agency: Army Corps of Engineers

                               $95,981                                               $982,780
                               Recovered Cost 45%                                    Recovered Cost 79%




  $116,616                                           $265,804
  Non-Recovered Cost 55%                             Non-Recovered Cost 21%




                       SUMMARY FOR ALL REIMBURSABLE PROJECTS
                                     (Interagency)

                                                           $1,141,030
                                                           Recovered Cost 67%




                       $573,064
                       Non-Recovered Cost 33%




                                                    23
NOAA’s Light Aircraft Fleet                                                                        Audit Report
Should Be Privatized                                                                               August 1998




                                                APPENDIX A


                                              Table 4
                                 NOAA-Owned and Operated Aircraft
                                    (as of September 30, 1996)
                                                      Tail
       Aircraft Description/Year of Make             Number          Home Base              Primary Mission

 HEAVY

     Lockheed P-3/1975                               N42RF       MacDill AFB, FL        Atmospheric Research

     Lockheed P-3/1976                               N43RF       MacDill AFB, FL        Atmospheric Research

 MID-SIZE

     Gulfstream G-IV Jet/1994                        N49RF       MacDill AFB, FL        Not in Service FY 1996

 LIGHT FIXED-WING

     Gulfstream Commander 690A/1974                  N53RF       Washington-Dulles      Aerial Survey

     Lake Renegade 250/1991                          N64RF       MacDill AFB, FL        Training

     Lake Renegade 250/1991                          N65RF       MacDill AFB, FL        Training

     Gulfstream Commander 500 S Shrike/1975          N47RF       Frederick, MD          Flight Edita

     Gulfstream Commander 500 S Shrike/1977          N51RF       Eden Prairie, MN       Snow Surveys

     Cessna Citation II/1978                         N52RF       Washington-Dulles      Aerial Photography

     de Havilland Twin Otter DHC-6/1980              N485RF      MacDill AFB, FL        Marine Mammal Survey

     de Havilland Twin Otter DHC-6/1981              N48RF       MacDill AFB, FL        Marine Mammal Survey

 HELICOPTERS

     Bell 212/1979                                   N60RF       MacDill AFB, FL        Reimbursable

     Bell 212/1979                                   N61RF       MacDill AFB, FL        Reimbursable

     Hughes 369/500D/1979                            N59RF       MacDill AFB, FL        Inactive
 a
  Flight edits are comprehensive aerial flight checks of the accuracy and currency of NOAA’s visual aeronautical
 charts, which are distributed to a variety of users including the Federal Aviation Administration, Department of
 Defense, general and corporate aviation, and commercial air carriers.



                                                        24
NOAA’s Light Aircraft Fleet                                                                                   Audit Report
Should Be Privatized                                                                                          August 1998




                                                      APPENDIX B

                                    Summary of OIG Overhead Cost Analysis

Table 5 includes our calculation of the in-house pool of overhead costs applicable to the NOAA
aircraft. Following the table, we present our methodology for assigning the costs, explanations,
and assumptions.

                                                   Table 5
                                Calculation of FY 1996 Overhead Pool of Costs
                  Cost Description                     Draft Report        Adjustment          Final Report     Referencec
 Total obligations/AOC, exclusive of salaries              $11,529,357         $(524,224)        $11,005,133        A1
 and related costsa

 Total obligations/salaries and related costs                3,123,790              (47,494)       3,076,296        A1
 of AOC officersb

 Additions:     Unfunded pension fund liability                487,110              506,822          993,932       A2a

                Administrative overhead                       952,024              (110,417)         841,607       A2b

 Subtractions: Aircraft-specific costs                      (7,751,500)                           (7,751,500)      A3a

                Catastrophic aircraft repair costs           (291,241)                             (291,241)       A3b

                U. S. Air Force special                      (247,606)                             (247,606)       A3c
                programs costs

                Gulfstream G-IV-SP jet                       (511,058)                             (511, 058)      A3d

                Program support costs                       (4,385,217)             110,088       (4,275,129)      A3e

 Total overhead pool/net adjustments                      $ 2,905,659              $(65,225)     $ 2,840,434

 Less: offsite costs                                           (47,215)                             (47,215)        B1

 Remaining overhead pool to allocate to aircraft          $ 2,858,444              $(65,225)     $ 2,793,219        B2

 a
  Source: NOAA’s FIMA Report No. FR-FD-32 for the fiscal year ended September 30, 1996, Financial Management Center
 No. 360.
 b
  Source: NOAA’s FIMA Report No. FR-FD-32 for the fiscal year ended September 30, 1996, Financial Management Center
 No. 310, task code no. 8P3A (Aircraft Services Support).
 C
     See “Methodology for Assigning the Costs,” which follows, for explanations.




                                                              25
NOAA’s Light Aircraft Fleet                                                         Audit Report
Should Be Privatized                                                                August 1998




Methodology for Assigning the Costs

A. Identifying the overhead pool:

   1.     We used data from NOAA’s FIMA to identify the fiscal year 1996 overhead support
          costs for the aircraft. We began by extracting total obligations from the year-end
          FIMA report for Financial Management Center #360 (Aircraft Operations Center)
          ($11,529,357), and FMC #310, task code #8P3A (Aircraft Services Support)
          ($3,123,790), which includes CPC salaries and related costs of the NOAA Corps
          officers assigned to AOC. To these amounts we made certain additions and
          subtractions, as described below, to identify the total pool of overhead costs to assign
          to the aircraft.

          Based on discussions with NOAA officials subsequent to issuing the draft report, we
          reduced reported obligations for Financial Management Center #360 by $524,224,
          and Financial Management Center #310 by $47,494, to correct for double counted
          overhead. See Appendix D, page 37.

   2.     Additions to the overhead pool:

          a.         Unfunded pension fund liability ($993,932) – A contract actuary hired by
                     the NOAA Corps reported that current outlays by NOAA for the Corps do
                     not reflect the full cost of NOAA’s liability for future payments to retired
                     Corps officers. In effect, NOAA is paying only 39 cents on each dollar
                     required to put the Corps’ retirement system on par with the civilian
                     retirement system. In our draft report, we estimated the annual
                     amortization of the unfunded pension liability associated with the 34
                     NOAA Corps officer pilots who were assigned to AOC during that year to
                     be $487,110. Subsequently, NOAA provided us with the actuary’s written
                     report, enabling us to calculate the actual unfunded liability of $993,932.
                     The adjustment of $506,822 accounts for the difference between these two
                     amounts.

          b.         Administrative overhead costs ($841,607)

                     (1)      Allocated ($675,247) – These costs are AOC’s allocated share of
                              support service provided by ONCO ($100,055) and CPC
                              ($350,314), and of AOC’s share of the health care contract
                              ($224,878) not included in total obligations from the year-end

                                               26
NOAA’s Light Aircraft Fleet                                                        Audit Report
Should Be Privatized                                                               August 1998




                              FIMA report for FMCs #360 and #310/task code #8P3A. The
                              health care contract covers active NOAA Corps officers, retired
                              officers, wage mariners, and surviving families. Our calculations
                              were allocated based on AOC direct labor costs. We reduced the
                              allocated share of administrative overhead by $110,417 based on
                              discussions with NOAA officials subsequent to issuing the draft
                              report and additional documents which NOAA provided. See
                              Appendix D, page 36.

                     (2)      Directly attributable ($166,360) – These costs are the salary,
                              FRPCO, and applied indirect costs of ONCO’s AOC liaison officer
                              ($136,576), and AOC costs for reimbursable projects with the
                              Army Corps of Engineers and U. S. Navy ($29,784) charged to
                              CPC. These costs were not included in total obligations from the
                              year-end FIMA report for FMCs #360 and #310/task code #8P3A.
                              An ONCO official told us that they plan to drop the AOC liaison
                              officer position.

   3.     Subtractions from the overhead pool:

          a.         Aircraft-specific costs ($7,751,500) – These costs are the fiscal year 1996
                     direct costs that NOAA included in its FAMIS report to GSA. They cover
                     the direct costs – fuel and lubrication, crew, maintenance, insurance and
                     depreciation – of all NOAA-owned aircraft except the Hughes 369/500D
                     helicopter, which was in storage. We subtracted these costs from the
                     overhead pool because they are aircraft specific direct costs.

          b.         Catastrophic aircraft repair costs ($291,241) – These costs are direct and
                     cover repairs to one of NOAA’s two de Havilland Twin Otter aircraft that
                     was damaged during contractor servicing.

          c.         U. S. Air Force special programs ($247,606) – These are direct costs
                     specifically associated with AOC’s hurricane reconnaissance missions for
                     the Air Force.

          d.         Gulfstream G-IV SP jet ($511,058) – These are the direct costs of
                     instrumenting NOAA’s newly delivered jet.



                                               27
NOAA’s Light Aircraft Fleet                                                         Audit Report
Should Be Privatized                                                                August 1998




          e.         Program support costs ($4,275,129) – These include the costs of AOC’s
                     Science and Programs Division and Systems Engineering Division.
                     Science and Programs provides scientific liaison and expertise to user
                     organizations. Systems Engineering is the technical support arm that
                     provides multi-discipline engineering services to AOC and its users. It is
                     responsible for the design, development, operation, maintenance, and
                     calibration of all scientific research equipment and systems. We
                     subtracted these costs from the overhead pool because NOAA would incur
                     them whether they use the services of their own aircraft or those of a
                     private contractor.

   4.     Exclusions:

          a.         AOC received the benefit of certain support services and facilities which
                     were excluded from our calculation of the overhead cost pool. These
                     included the following:

                     (1)      Department of Commerce overhead costs (amount not
                              determined) – Although AOC receives the benefit of departmental
                              support services, albeit indirectly, we excluded from our overhead
                              pool AOC’s share of related costs because excessive audit time
                              would be needed to accurately calculate them.

                     (2)      Hangar costs ($1,300,000) – The Air Force currently provides
                              AOC with rent-free use of its hangar at MacDill Air Force Base.
                              However, as the facilities needs of the Air Force change, so can the
                              status of rent-free use of the hangar. During the period of our
                              audit, the Air Force was considering charging AOC rent, but
                              decided to continue with the rent-free arrangement. This
                              underscores the tenuous nature of AOC’s free hangar rental
                              charges. We believe that hangar cost is a significant and necessary
                              component of aircraft operation and must be factored into the cost
                              of doing business. However, we excluded from the overhead pool
                              the value of annual hangar rental of $1.3 million, based on a
                              NOAA cost study and subsequent modification by the U. S.




                                               28
NOAA’s Light Aircraft Fleet                                                                 Audit Report
Should Be Privatized                                                                        August 1998




                                 General Accounting Office1, because NOAA did not incur this
                                 expense in fiscal year 1996.

                        (3)      MacDill AFB site services (amount not determinable) – These
                                 services include the airport tower for take off and landings, fire
                                 protection, and security. MacDill Air Force Base officials told us
                                 that although AOC does make use of these services, it cannot
                                 identify the costs because it does not separately account for AOC’s
                                 portion.

            b.          Retired officer pay and health care contract costs ($1,106,097) – These
                        costs are AOC’s portion of total payments to retired NOAA Corps officers
                        ($1,007,433), and for the related health care contract ($98,664). Our
                        calculations are based on AOC’s percentage of active NOAA Corps
                        officers. However, when comparing the cost of operating AOC to the cost
                        of outsourcing, these costs should be excluded as an AOC expense
                        because they would continue to be incurred whether NOAA outsourced or
                        not.

B. Assigning the costs in the overhead pool to NOAA’s aircraft:

   1.       Offsite costs ($47,215) – These costs are for telecommunications, non-aircraft
            maintenance, miscellaneous contract services, and similar overhead associated with
            specific aircraft based away from MacDill Air Force Base. We identified and
            subtracted these costs from the overhead pool and assigned them to the specific
            aircraft.

   2.       Remaining overhead pool ($2,793,219) – The overhead pool remaining after
            subtracting offsite costs was then assigned to the 12 NOAA aircraft based on each
            aircraft’s relative share of total fiscal year 1996 aircraft-specific costs as reported by
            NOAA to GSA. GSA offers typical measures used to allocate overhead costs in
            aviation programs. These include the number of aircraft, flight hours or passengers,
            value of the aircraft, and variable costs of the aircraft. We believe that assigning
            overhead costs based on the share of aircraft-specific costs is a fair representation of
            how overhead costs are incurred to support each of the NOAA aircraft. This method


        1
          NOAA Aircraft Operations Cost Analysis Does Not Support Decision to Relocate, December 1992,
U. S. General Accounting Office.

                                                    29
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




           takes into account the value of the aircraft, the number of flight hours, and variable
           costs because depreciation, maintenance, crew costs, and variable costs are all
           included in aircraft-specific costs.

Explanations and Assumptions

A. Overhead costs include operations and administrative overhead. According to GSA’s
   Government Aircraft Cost Accounting Guide, operations overhead is the cost associated with
   the direct management and administration of the aircraft operation. In general, this category
   does not extend beyond the aviation department and should include all costs that are not
   assigned to the aircraft-specific cost category, but could be eliminated if the agency did not
   own and operate any aircraft. Included in this category are the aviation manager, dispatcher,
   administrative personnel assigned to the unit, office and hangar rental costs, office supplies,
   and janitorial services. The Guide defines administrative overhead as all administrative and
   management support costs that are provided by other sections of the agency in support of the
   aviation department. Examples include payroll, personnel, accounting, legal services, as well
   as the time of senior management devoted to the supervision of the aviation department.

B. We assume that NOAA’s aircraft-based program requirements will continue. We make no
   attempt to speculate about which of NOAA’s many program requirements may no longer be
   required in the future. We accept NOAA’s current program requirements and realize that
   alternatives must be practically available to prevent disruptions.

C. Comparisons of NOAA’s aircraft to outsourcing alternatives must equate for the level of
   services provided to programs. As such, we have exerted great effort to ensure that our
   comparisons are fair and that outside alternatives provide at least the same level of service.

D. Two of NOAA’s 14 aircraft are excluded from our overhead cost calculations and
   assignments. These are the Gulfstream G-IV SP jet and the Hughes 369/500D helicopter.
   The G-IV jet was not scheduled for its first mission use until 1997. The Hughes 369/500D
   helicopter was kept in storage for the entire fiscal year because there was no need for its
   services.




                                                30
NOAA’s Light Aircraft Fleet                                                                       Audit Report
Should Be Privatized                                                                              August 1998




                                                APPENDIX C

                             Comparison of OIG-Calculated Full Cost
                    for the NOAA-Owned Aircraft with the Industry Standard

We compared our calculated full costs per flight hour for NOAA’s light aircraft with the industry
standard. Industry standard costs were obtained from Conklin & deDecker Associates, Inc., an
independent consulting firm that prepares OMB Circular A-76 cost comparisons for federal
agencies having in-house aircraft operations. Industry standard data was not available for
NOAA’s two Lake Renegade aircraft. Therefore, they were excluded from this comparison. Our
comparative data for the light aircraft is presented first for the fixed-wing aircraft and then for the
rotary-wing aircraft.


                                         Table 6
                               Light Fixed-Wing Aircraft:
             Comparison of OIG-Calculated Full Cost with the Industry Standard
                                                     Cost Per Hour                                  Percent
                                                                                  Full Cost        Full Cost
                                                 OIG-                            Over (Under)     Over (Under)
                                               Calculated         Industry        Industry          Industry
                 Aircraft                      Full Cost         Standarda        Standard         Standard

 N53RF/Gulf Turbo Commander 690A                $1,219           $1,136               $83                7.31%

 N47RF/Aero Commander Shrike                       807              485               322              66.39

 N51RF/Aero Commander Shrike                       564              485                79              16.29

 N52RF/Cessna Citation II                        2,606             2,042              564              27.62

 N485RF/de Havilland Twin Otter                  1,955             1,086              869              80.02

 N48RF/de Havilland Twin Otter                   1,955             1,086              869              80.02


 Light Fixed-Wing Average Percentageb                                                                  44.08%

 a
  Includes an administrative charge of 8 percent of the industry standard hourly rate for NOAA administrative
 oversight. The administrative charge is the same rate charged by OAS and the same rate used by AOC in its
 1995 draft in-house aircraft cost study.
 b
  Calculation based on the total of the “Full Cost Over (Under) Industry Standard” column, $2,786, divided by the
 total of the “Industry Standard Cost Per Hour” column, $6,320.




                                                         31
NOAA’s Light Aircraft Fleet                                                                       Audit Report
Should Be Privatized                                                                              August 1998




                                        Table 7
                              Light Rotary-Wing Aircraft:
            Comparison of OIG-Calculated Full Cost With the Industry Standard
                                           Cost Per Hour                                         Percent
                                                                          Full Cost             Full Cost
                                     OIG-                                Over (Under)          Over (Under)
                                   Calculated          Industry            Industry             Industry
           Aircraft                Full Cost          Standarda           Standard              Standard

 N60RF/Bell 212 Helicopter          $1,816              $2,813                $(997)                  (35.44)%

 N61RF/Bell 212 Helicopter            1,594              2,813                (1,219)                 (43.33)


 Rotary-Wing Average Percentageb                                                                      (39.38)%

 a
  Includes an administrative charge of 8 percent of the industry standard hourly rate for NOAA administrative
 oversight. The administrative charge is the same rate charged by OAS and the same rate used by AOC in its
 1995 draft in-house aircraft cost study.
 b
   Calculation based on the total of the “Full Cost Over (Under) Industry Standard” column, $(2,216), divided by
 the total of the “Industry Standard Cost Per Hour” column, $5,626.


Two components, aircraft depreciation and insurance, account for the higher industry standard
cost for AOC’s two Bell 212 helicopters. Aircraft depreciation and insurance costs for both
helicopters are 54 percent of total industry standard costs, whereas for our calculated full costs
they are 10 percent for the N60RF helicopter and 13 percent for the N61RF helicopter. The
annual depreciation expense in the industry standard for both helicopters is $500,500, based on
the purchase of new helicopters costing $5,005,000 each and depreciated over eight years to a
20 percent residual. However, NOAA claimed an annual depreciation expense of only $51,385
and $51,903 for N60RF and N61RF, respectively. NOAA’s full cost depreciation expense is
based on AOC’s purchase of used helicopters costing $924,932 and $934,249 each, and
depreciated over 18 years with no residual. Private-sector companies often accelerate the annual
rate of depreciation expense to take advantage of federal tax laws offering greater write-offs.
The annual insurance expense in the industry standard for both helicopters is $135,125 and
covers insurance on the aircraft hull and for liability. The largest component of this expense is
insurance of $125,125 on the aircraft hull and is based on 2.5 percent of the purchase price of a
new helicopter. However, NOAA estimated only about $20,000 for each of its Bell helicopters.




                                                       32
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




                                                APPENDIX D

                     Summary of NOAA’s Response to the Draft Audit Report
                                 and Related OIG Comments

In its reply to our draft audit report, NOAA provided its position on each of our findings,
recommendations, and other related issues, as summarized in the following sections. Each
portion of the NOAA response is followed by our comments. A copy of the complete response is
presented as Appendix E.

OIG FINDING: NOAA SHOULD PRIVATIZE ITS LIGHT AIRCRAFT
SERVICES SUPPORT

Conclusion

Program offices should rely on the private-sector to provide required light aircraft services. This
is because NOAA’s group of 10 light aircraft is significantly more costly to operate when the true
or full costs are compared with the private sector.

NOAA Response: NOAA does not agree with our conclusion that its group of 10 light aircraft is
significantly more costly to operate when the true or full costs are compared with the private
sector. NOAA believes that data in the draft report were incomplete. There are three areas of
cost, it believes, which appear incorrect. These are the costs associated with overhead, daily use
or standby time, and modification and demodification of the aircraft necessary to meet NOAA’s
project requirements. Regarding each of these three types of cost, NOAA states the following:

1. Overhead

In determining the full costs for NOAA’s aircraft, certain overhead costs are either incorrectly
double counted or otherwise inappropriate, leading to an overstatement of NOAA’s costs per
flight hour. Specifically, NOAA takes exception to the following costs that are included in our
calculation of the fiscal year 1996 in-house overhead pool1:

       A.         Unfunded pension fund liability ($487,110) – The unfunded pension liability in
                  line 3 should be removed because it is included as an indirect cost in the total
                  obligations for AOC in line 1.




       1
           See Table 5, Appendix B, line numbers as specified.

                                                       33
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




       B.      Administrative overhead costs ($828,024) – The administrative overhead in line 4
               ($952,024) should be reduced to no more than $124,000 because all of the
               overhead expenses, except perhaps a portion of health care, are included as
               indirect costs in lines 1 and 2 and the AOC liaison officer position has been
               eliminated.

       C.      Indirect costs ($576,000) – Indirect costs included in line 1 are also included in
               this line as a direct cost and should be excluded.

2. Daily use or standby time

OIG estimates of contractor costs exclude daily use or standby time costs that contractors would
charge because their aircraft would be unavailable for other uses due to environmental or other
factors that do not meet mission or safety parameters. Standby time caused by bad weather,
reinstrumentation and other factors can, for some missions, be a significant percentage of the
time allotted for the project.

3. Modification and demodification

The OIG excluded from its contractor cost estimates aircraft modification and demodification
costs. These are the costs of adding, and removing in some post-project demobilizations, the
specialized aircraft equipment and modifications necessary to support NOAA’s mission.

Also, one aircraft included in the OIG analysis, a Twin Otter (N48RF), was damaged while
undergoing maintenance, resulting in a reduction in flight hours and subsequently higher than
normal costs per hour of flight. The use of hourly costs for a sister aircraft is a more accurate
representation of the typical costs for this aircraft.

In its response, NOAA developed for each of the light aircraft its own comparison of full in-
house and contractor cost. After excluding double counting of NOAA overhead costs, including
daily use or standby time and aircraft modification costs for contractors, and correcting the cost
of NOAA’s Twin Otter to account for downtime during maintenance on the aircraft, NOAA
concluded that its aircraft operation costs 32 percent less than contractors.

OIG Comments: We reaffirm our conclusion that NOAA’s group of 10 light aircraft is
significantly more costly to operate when the true or full costs are compared with the private
sector. Regarding NOAA’s response concerning the three areas of cost, we offer the following:




                                                 34
NOAA’s Light Aircraft Fleet                                                                   Audit Report
Should Be Privatized                                                                          August 1998




1.      Overhead

        A.       Unfunded pension fund liability ($487,110) -- According to a report issued by the
                 contract actuary hired by the NOAA Corps2, the total annual cost of a retirement
                 system is the annual normal cost and the payment of the amortization of the
                 unfunded liability. The annual normal cost is the annual amount required to
                 prefund retirement benefits for all active service officers. It is calculated as the
                 salary during the period multiplied by the normal cost percentage. The normal
                 cost used in the actuary’s report was 37.3 percent of payroll. The unfunded
                 liability is the actuarial present value of projected retirement plan benefits. It is
                 calculated by adding the present value of benefits for current retirees and current
                 active officers and subtracting the present value of future normal cost. The
                 actuary amortized the unfunded liability over 40 years.

                 In addition, NOAA’s Budget Handbook states that FRPCO is the surcharge
                 applied to NOAA Corps labor within a task. The FRPCO of $485,605.61
                 included in the overhead pool was calculated by multiplying regular salaries of
                 NOAA Corps officers (Object Class 1111) of $1,298,410.70 by 37.4 percent.
                 Clearly, this amount is the annual normal cost of the NOAA Corps retirement
                 system applicable to the active pilots assigned to AOC. However, according to
                 the actuary’s report, it is only one of two elements that comprise the total annual
                 cost of the retirement system.

                 The other separate and distinct element contributing to the cost of the NOAA
                 Corps retirement system is the unfunded pension liability. Based on limited data
                 available to us at the time of our review, we calculated the fiscal year 1996
                 amortization of the unfunded pension liability to be $487,110 and, because it was
                 not included in NOAA’s FIMA data, added it to the overhead pool. Subsequent to
                 our draft report, ONCO provided us with additional data that, for purposes of full
                 cost accounting, necessitated that we increase the annual amortization of the
                 unfunded liability to $993,931.54.

                 The additional data consisted of a written report of the actuary3 detailing its
                 calculation of the Corps retirement system’s unfunded liability of $266,800,000,



        2
          Analysis of the Retirement Cost From Disestablishment of the National Oceanic and Atmospheric
Administration Corps, Hay/Huggins Co., Inc., March 6, 1997.

        3
        Opinion of the Enrolled Actuary of the NOAA Corps Retirement System as of September 30, 1997,
Hay/Huggins Co., Inc., December 23, 1997.

                                                     35
NOAA’s Light Aircraft Fleet                                                                        Audit Report
Should Be Privatized                                                                               August 1998




                  which was included in NOAA’s audited financial statements for fiscal year 19964.
                  The actuary reported that the fiscal year 1996 amortization of the unfunded
                  liability was $19,430,000. Our analysis of the actuary’s calculation of the
                  unfunded liability indicated that 52.52 percent of the total present value of future
                  benefits was applicable to active duty officers5. Therefore, 52.52 percent of the
                  annual amortization, or $10,204,636, was applicable to these officers. Because
                  9.74 percent of the active duty officers in fiscal year 1996 were pilots assigned to
                  AOC, 9.74 percent of $10,204,636, or $993,931.54, was the annual amortization
                  of the unfunded liability applicable to the pilots assigned to AOC.

                  In addition, we contacted NOAA’s Finance Office regarding FRPCO and the
                  unfunded pension liability. An official told us that FRPCO is calculated by
                  applying a certain rate to the salaries of NOAA Corps officers. The unfunded
                  pension liability which appears in the annual financial statements is actuarially-
                  determined. The official emphasized that the two cost elements are separate and
                  distinct.

                  We, therefore, disagree with the NOAA response. We correctly included, without
                  duplication, both the annual normal cost (FRPCO) and the amortization of the
                  unfunded liability, as revised by the additional NOAA data,6 in our calculation of
                  the fiscal year 1996 overhead pool.

        B.        Administrative overhead costs ($841,607) – We reduced the allocated share of
                  administrative overhead by $110,417, based on discussions with ONCO officials
                  subsequent to issuing our draft report and additional documents that they
                  provided. This adjustment consists of a (1) $122,927 decrease in AOC’s allocated
                  share of support service provided by CPC attributable to correcting for (a) a
                  misclassification error involving health care contract costs and (b) the cost of an
                  ONCO billet with duties specific to the NOAA vessel fleet, and (2) $12,510
                  increase to account for additional costs of AOC’s share of the contract for health
                  care provided by the U. S. Department of Health and Human Services to NOAA
                  beneficiaries.


        4
            Audit of NOAA’s FY 1996 Financial Statements, Audit Report No. FSC-8841-7-0001, February 26, 1997.

        5
          The remaining 47.48 percent of the present value of future benefits was applicable to current annuitants
and excluded from our calculation of the unfunded liability for purposes of comparing in-house and contractor
costs.

        6
          See adjustment of $506,822 to the unfunded liability in line 3, Table 5, calculated by subtracting the
original OIG amount, $487,110, from the revised total, $993,932, which is based on the actuary’s written report.

                                                        36
NOAA’s Light Aircraft Fleet                                                               Audit Report
Should Be Privatized                                                                      August 1998




                 Regarding NOAA’s assertion that part of our addition to the overhead pool for
                 administrative costs duplicates indirect costs in lines 1 and 2 of the pool, we have
                 reduced line 2 by $47,494. This amount consists of applied indirect costs
                 associated with the Commissioned Personnel Center for the salaries of AOC
                 officers7. Because we included the actual indirect costs for these officers as an
                 addition to the overhead pool ($350,314/allocated administrative overhead), it
                 would be inappropriate to also include the applied costs in the same pool.
                 However, NOAA has not provided written evidence to corroborate its assertion
                 that administrative overhead costs of $100,055 related to support services
                 provided by ONCO are double counted. As a result, we are unable to ascertain
                 how applied indirect overhead from AOC’s FMC 360 funds activities that are
                 related to ONCO.

                 We disagree with NOAA’s assertion that administrative overhead should be
                 reduced for the costs of the AOC liaison officer because the position has been
                 eliminated. One of our audit objectives was to account for the full in-house cost
                 of operating the NOAA aircraft in fiscal year 1996. NOAA’s elimination of this
                 position subsequent to fiscal year 1996 does not change the fact that these costs
                 were incurred during the audit period. To exclude these costs from the overhead
                 pool would be inconsistent with our audit objective as well as the full cost
                 reporting principle embodied in Statement of Federal Financial Accounting
                 Standards No. 4.

       C.        Indirect costs ($576,000) – In response to NOAA’s assertion that indirect costs
                 included in line 1 are also included in this line as a direct cost and should be
                 excluded, we reduced line 1 by $524,223.93. This amount is attributable to
                 general support for AOC8 and is a source of funding for it through the NOAA
                 Management Fund.

2.     Daily use or standby time

       We discussed the issue of daily use or standby time with contractors and Interior’s Office
       of Aircraft Services. Standby time is charged because it is not known when or even if an
       aircraft is needed, but should it be, it must be made available immediately and exclusively
       to the user. For example, OAS solicits bids for fire suppression missions. Because of the
       unknown nature of forest fires, platforms need to be available on call. Therefore, OAS
       solicits these aircraft services by requiring that contractors bid a daily standby time charge


       7
           FMC 310, object class codes 9858 ($21,570), 9878 ($25,725), and 9958 ($199).

       8
           FMC 360, object class code 9878/OR&F (S&E).

                                                      37
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




       for each day of the fire season. Contractors get paid the daily standby charge regardless
       of whether the aircraft flies.

       Including a daily use or standby time charge in contractor rates for NOAA light aircraft
       services would be inappropriate because its contract requirements, such as approximate
       hours and contract period, are known. The “FY 1996 Flight Operations Schedules,”
       approved by the NOAA Aircraft Allocation Council, clearly identifies for each AOC light
       aircraft the allocated hours and scheduled performance period for the various projects.
       For example, N47RF (Shrike) was scheduled for 100 hours of flight edit each month
       during October, January, April, July, and September; and N52RF (Citation) was
       scheduled for 410 hours of coastal mapping for January through September.

       With this information, contractors are able to negotiate, and do negotiate, NOAA
       contracts without a daily use or standby time charge. For example, one helicopter
       contractor bid and won a NOAA contract to perform marine mammal surveys. The
       contractor told us that it bid an hourly rate of $325 for 100 hours of survey work to be
       performed between September 1 and November 15. There is no charge for daily use or
       standby time for the contract period; only the hourly rate is billed. The contractor said
       that the contract did not include a provision for daily daily use or standby time because it
       is willing to negotiate to obtain the government’s business. As another example, NOAA
       has also contracted with a different company to perform coastal mapping work for the
       National Ocean Service and the contract does not include a provision to charge for daily
       daily use or standby time.

       During the audit exit briefing, NOAA officials stated that daily use or standby is included
       in the provisions of NOAA contracts for aircraft support services. However, they were
       unable to identify the specific contracts. Subsequently, we requested that a NOAA
       official provide us with a list of all such current contracts to corroborate that such charges
       are routinely included in contract provisions. However, the NOAA official did not
       respond to our request.

       Therefore, we disagree with the NOAA Corps position. Including a daily daily use or
       standby charge would be inappropriate and would distort the contractor rates used for
       comparison with the full in-house costs for each of the NOAA-owned light aircraft.

3.     Modification and Demodification

       We do not agree with NOAA’s assertion that modification and demodification costs
       should be added to our estimated contractor costs. Modification and demodification
       costs, included in AOC’s program support costs, have already been subtracted from the
       overhead pool in Table 5, Appendix B. Program support includes the costs of the


                                                38
NOAA’s Light Aircraft Fleet                                                             Audit Report
Should Be Privatized                                                                    August 1998




       Systems Engineering Division and its fabrication shop that are responsible for the design
       and construction of aircraft modifications. Therefore, we believe that if we were to
       include these costs in our estimates of contractor rates, as NOAA proposes, it would
       invalidate the comparisons unless SED costs of $3,226,335 were added back to the in-
       house overhead pool. Also, as discussed in our report, we found that private-sector
       companies have the capability to support NOAA missions. These companies are in the
       business of providing the types of light aircraft support services that NOAA and other
       agencies, such as the U. S. Department of Agriculture, require and, by necessity, have
       aircraft fully equipped to meet specific requirements. Examples include aircraft support
       for mammal surveys and aerial photogrammetry to complete flight edit, coastal mapping,
       and airport obstruction. Substantive modifications to their platforms are unnecessary. If
       modifications are required, one contractor told us that it is willing to modify its aircraft at
       its own expense because it wants NOAA’s business.

       Also, during the audit exit briefing, NOAA officials stated that modification costs are
       included in the depreciation charges that they report to GSA. Our review of the fiscal
       year 1996 FAMIS report provided to GSA and AOC’s aircraft depreciation schedule for
       that year indicate that depreciation charges for the light aircraft were based on the initial
       acquisition cost of each aircraft. Modification costs were not identified. NOAA must
       provide us with a written breakdown of the capitalized cost of each light aircraft reported
       to GSA together with supporting cost documents to substantiate its assertion.

Concerning the Twin Otter (N48RF) that was damaged during maintenance, we acknowledge
that our comparison should compensate for the reduction in flight hours, and have adjusted our
calculated in-house hourly rate to equal that of NOAA’s other Twin Otter (see Table 1).

The cost ineffectiveness of NOAA’s group of 10 light aircraft is substantiated by NOAA’s own
calculations of the full in-house costs that it provided in its written response (see Appendix E,
page 17). Even after excluding what NOAA claims to be double counted overhead and
correcting the cost of its Twin Otter to account for downtime, NOAA’s full costs are, on average,
33 percent more than our estimated contractor hourly rates. Table 8 (see Appendix D, page 40)
provides the results of our analysis.

Recommendations

                                       Recommendation #1

       Retain the two Lockheed WP-3D Orions and the Gulfstream G-IV SP jet.

NOAA Response: NOAA concurs with the recommendation to retain the Lockheed WP-3D
Orions and the Gulfstream G-IV SP jet.

OIG Comments: NOAA’s reply is responsive to our recommendation.

                                                 39
NOAA’s Light Aircraft Fleet                                                                           Audit Report
Should Be Privatized                                                                                  August 1998




                                           Table 8
                                     NOAA’s Light Aircraft:
                        Comparison of NOAA-Calculated Full In-House Cost
                             With OIG-Obtained Contractor Rates
                                                            Hourly Cost


                                                                                                      Percent
                                     NOAA-                 OIG-             NOAA Full Cost         NOAA Full Cost
                                     Calculated           Obtained           Over (Under)           Over (Under)
             Aircraft                Full Cost           Contractora        Contractor Cost        Contractor Cost

 N53RF/Gulf Turbo Commander                   $1,148             $ 688                    $ 460         66.86%
 690A

 N64RF/Lake Renegade                             294               205b                      89          43.41

 N65RF/Lake Renegade                             230               205b                      25          12.20

 N61RF/Bell 212 Helicopter                     1,501             1,836                    (335)         (18.25)

 N60RF/Bell 212 Helicopter                     1,710             1,836                    (126)           (6.86)

 N47RF/Aero Commander                            759               366                      393         107.38
 Shrike

 N51RF/Aero Commander                            530               366                      164           44.81
 Shrike

 N52RF/Cessna Citation II                      2,453             1,436                    1,017           70.82

 N485RF/de Havilland Twin                      1,841             1,142                      699           61.21
 Otter

 N48RF/de Havilland Twin Otter                 1,841             1,142                      699           61.21

 Light Aircraft Average Percentagec                                                                      33.45%
 a
  Includes an administrative charge of 8 percent of the contractor’s hourly rate for NOAA contractor oversight.
 The administrative charge is the same rate charged by OAS and the same rate used by AOC in its 1995 draft in-
 house cost study.
 b
  The commercial rate for the two Lake Renegades was available from only one contractor. Private sector owner-
 operators told us that contractor rates are difficult to obtain because the Lakes have limited practical use and are
 mainly a recreational platform. Also, AOC’s 1995 in-house cost study included a commercial rate of $173/hour.
 C
  Calculation based on the total of the “NOAA Full Cost Over (Under) Contractor Cost” column, $3,085, divided
 by the total of the “OIG-Obtained Contractor Hourly Cost” column, $9,222.


                                                         40
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




                                       Recommendation #2

       Discontinue operating the eight fixed-wing light aircraft and the three helicopters
       (including the inactive Hughes 369/500D helicopter) and release them, in accordance
       with OMB Circular A-126, along with related spare parts.

NOAA Response: NOAA disagrees with this recommendation. NOAA believes this
recommendation is based on an incomplete analysis that results in an incorrect conclusion that
commercial alternatives are less costly. It believes that its operations are more cost effective than
the private sector. Also, NOAA states that disposal of its aircraft would pose an unacceptable
risk to its ability to continue uninterrupted data collection in support of its scientific and survey
missions and would increase the risk of accidents that could affect the safety of NOAA program
personnel.

OIG Comments: We reaffirm our recommendation. We believe that our comparative analysis of
costs was thorough and objective and stand by our conclusion that NOAA’s group of 10 light
aircraft are significantly more costly to operate when their true or full costs are compared with
the private sector. We specifically addressed each of NOAA’s concerns about the costs of
overhead, daily use or standby time, and modification and demodification, as well as NOAA’s
Twin Otter that was damaged during maintenance, in the previous section. Where appropriate,
we have made adjustments to full in-house costs to reflect these concerns. Our analysis clearly
shows that the cost to operate NOAA’s fleet of 10 light aircraft averaged 42 percent more than
the cost to operate similar private-sector aircraft that can provide equivalent services. The reality
of this conclusion is underscored by the fact that NOAA’s own full in-house costs, which it
provided in its written response, are 33 percent more than our estimated private-sector rates.

Regarding NOAA’s assertion that disposal of its light aircraft would pose an unacceptable risk to
its ability to continue uninterrupted data collection in support of its scientific and survey
missions, we remind NOAA that the majority of flight hours for its light aircraft in fiscal year
1996 were in pursuit of the missions of other agencies. Two of NOAA’s light aircraft were used
exclusively for interagency work. When NOAA does need light aircraft primarily in support of
its own mission, it should rely on the services of contractors. As discussed in the report, aircraft
service contractors are capable and available to provide uninterrupted data collection in support
of NOAA’s mission. NOAA should rely, as other agencies do, on the aircraft services of
contractors.

We also disagree with NOAA’s assertion that the disposal of its light aircraft would increase the
risk of accidents that could affect the safety of NOAA program personnel. We believe that
customers, including other agencies, would not contract with the numerous private aircraft
service providers available if they posed an unacceptable safety risk. Like the procurement of
any service, it behooves the customer to do its homework. Matters affecting safety can and
should be satisfactorily resolved before contracting with aircraft service providers. To date,

                                                 41
NOAA’s Light Aircraft Fleet                                                             Audit Report
Should Be Privatized                                                                    August 1998




AOC has had a commendable safety record. However, we believe that the time is most
appropriate for NOAA to dispose of its 10 light aircraft and seek its aircraft support services
from those private contractors that will provide them effectively, economically, and safely.

NOAA should include in its audit action plan a milestone schedule for release of its eight fixed-
wing light aircraft, three rotary aircraft, and related spare parts. The milestone schedule should
include for each aircraft identification of remaining project commitments and planned
completion dates, as well as NOAA’s expected release dates.

                                        Recommendation #3

       Establish written NOAA policy that program offices are to rely on the private sector,
       when economically advantageous, to provide aircraft services support.

NOAA Response: Although NOAA stated that it agrees that the program offices should rely on
the private sector to provide aircraft support when it is economically advantageous to do so, it
has already established written NOAA policy to this effect. NOAA believes that its
Administrative Order 216-103 provides NOAA program managers appropriate guidance for
obtaining aircraft support services efficiently and economically. NOAA further states that it does
use contracted aircraft support to meet some needs where economically or operationally
beneficial and that it is in conformance with all current NOAA and Administration policies.

OIG Comments: NOAA’s reply is responsive to our recommendation to establish such written
policy. However, based on the results of our audit, we disagree that NOAA has fully
implemented either its or the Administration’s policies to use the private sector when
economically advantageous. We, therefore, have modified our recommendation to state that
NOAA should fully comply with its established written policy.

                                        Recommendation #4

       Transfer AOC base funding for aircraft support to NOAA’s line organizations, and
       implement procedures to ensure that line organizations procure aircraft support from the
       most cost-effective private-sector sources.

NOAA Response: NOAA disagrees with the recommendation to transfer base funding to the line
offices. It cites four reasons. First, through the aircraft allocation process, the line organizations
manage use of funding for aircraft support. NOAA’s Aircraft Allocation Council (NAAC) is
responsible for establishing the relative priorities for the use of NOAA aircraft. Second, a
significant portion of the funds used for light aircraft is presently included in line office funding
and is transferred to AOC on an annual basis to meet specific project requirements. Third,
transferring the funds to the line offices would require that each line organization set up a
management structure to oversee the allocation of funds for budget and procurement purposes.

                                                  42
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




AOC already provides these services efficiently as a centralized function. Fourth, transfer of
AOC base funding to the program offices could compromise safety.

OIG Comments: We reaffirm our recommendation. Through the aircraft allocation process, the
line organizations are managing use of operational NOAA aircraft time, not funding, to support
NOAA’s programs and missions. The NAAC decides how the time of NOAA’s base funded
aircraft will be allocated among competing NOAA projects. However, by transferring base
funding to the line components, NOAA would provide greater control to program managers over
flight hour funding. As found in our audit, NOAA aircraft are, on average, 42 percent more
costly to operate as compared with contractors. Transfer of base funding to the line organizations
would enable program managers to procure aircraft services from the more cost-effective
commercial sources and provide opportunities to select alternative platforms.

As to NOAA’s claim that line offices transfer significant funding for light aircraft to AOC each
year to meet specific project requirements, the issue is whether they would still be willing to do
so if they knew that NOAA aircraft cost, on average, 42 percent more to operate than those of
contractors. Line offices would most certainly reconsider such transfers if they knew that
contractors would offer them the choice of greater cost savings or increased flight hours.

We also disagree with NOAA’s assertion that transferring base funding would necessitate a
separate management structure for budget and procurement and that AOC already provides these
services efficiently as a centralized function. A separate management structure within each line
organization would be unnecessary. Existing program managers and contracting officers would
assume the additional responsibilities for acquiring aircraft support. Also, the results of our audit
of AOC, which includes its budget and procurement functions, demonstrate the relative
inefficiencies of NOAA’s centralized aircraft support services.

The distribution of base funding to the line offices would not compromise the safety of aircraft.
As noted in our comments regarding recommendation #2, the line offices would satisfactorily
resolve safety issues in the contractor selection process. We believe that contractors, too, have a
mandate to maintain their planes in a safe manner and to ensure that the crews are properly
trained. Their customers and, ultimately, the success of their businesses depend upon safety.

                                       Recommendation #5

       Pending release of aircraft and transfer of funding, report the full cost of each aircraft in
       accordance with federal accounting guidelines.

NOAA Response: NOAA agrees that the full cost of operation of each aircraft should be reported
in accordance with federal accounting guidelines. Although NOAA believes that it is in
compliance, it will review its data reports to ensure that it corrects any identified deviations from
the standards.

                                                 43
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




OIG Comments: NOAA’s reply is responsive to our recommendation. However, NOAA’s audit
action plan should include commitments to provide us with the results of its review of data
reports for identified deviations from full cost and a copy of the fiscal year 1998 FAMIS report of
aircraft operating costs which it submits to GSA.

Other Related Issues

NOAA raises the following other issues related to this finding. The page references are to
NOAA’s complete response to the draft audit report at Appendix E.

1.     Funds to Be Put to Better Use

NOAA Response: NOAA states that if its 10 light aircraft are sold, the proceeds will go to the
general treasury, not to NOAA, requiring NOAA to secure additional funding to acquire contract
aircraft support (see page 11). Also, NOAA asserts that included in the annual savings claimed
are depreciation and insurance costs which may be appropriate for a cost comparison but which
are not appropriated funds available for spending (see page 14).

OIG Comments: The proceeds from the sale of the 10 light aircraft cannot be used to directly
fund NOAA’s contract aircraft support. Because the aircraft are federal government aircraft, not
NOAA aircraft, the proceeds must go to the U.S. Treasury. Funding for contract aircraft support
comes from NOAA’s regular appropriation for aircraft services program support. The real
savings to NOAA come not from the one-time sale of the aircraft, but from the annual cost
savings over the long-term from contracting for aircraft services support rather than obtaining
this support in-house.

Both depreciation and insurance relate to appropriated funds available for spending.
Depreciation is based on the acquisition cost of an aircraft. Insurance relates to catastrophic
aircraft repairs. The difference between these costs and those such as pilot salaries and fuel is in
the timing of their expenditure. Appropriated funds for salaries and fuel are expended annually.
However, appropriated funds to purchase aircraft or to pay for catastrophic aircraft repairs are
one-time expenditures. To compensate for this timing difference and to ensure capture of each
aircraft’s full costs, depreciation and insurance must be reported annually and considered as
essential elements in the calculation of annual cost savings.

2.     Bell 212 Helicopters

NOAA Response: NOAA states that the draft report implies that its Bell helicopter rates only
appear to be cost competitive because of depreciation methodologies. More specifically, the OIG
report says that the industry approach is to depreciate helicopters over eight years to gain a tax
advantage, while NOAA is depreciating NOAA helicopters over 18 years making its costs appear
lower. However, NOAA’s helicopters are 12 years old, so if the industry approach was used,

                                                 44
NOAA’s Light Aircraft Fleet                                                           Audit Report
Should Be Privatized                                                                  August 1998




NOAA’s cost would actually decrease because the helicopters would be fully depreciated (see
page 18).

OIG Comments: We stand by our assessment that depreciation, as well as insurance, plays a
significant role in making the Bells appear to be cost competitive with the private sector. We are
not, however, suggesting that NOAA adopt the industry depreciation methodology. Depreciation
and insurance costs aside, our most important concern regarding NOAA’s two Bell 212
helicopters is that in fiscal year 1996 these two aircraft were used exclusively for interagency
reimbursable projects. NOAA appropriations funded 33 percent of the cost of these other agency
projects, diverting limited program funding from NOAA’s primary mission. NOAA should not
operate aircraft that result in subsidizing another agency’s primary missions.

3.     NOAA’s Contracted Marine Mammal Work/Twin Otter vs. Partenavia Aircraft

NOAA’s Response: NOAA claims that the comparison of the costs for contracted marine
mammal work, which is based on the use of a Partenavia aircraft, with NOAA’s Twin Otter costs
is inappropriate. It then cites various areas where the two aircraft differ to support its
assessment, including aircraft range, operating reliability, parts availability, and size of the
interior cabin, among others (see page 19).

OIG Comments: We reassert the validity of our comparison between the contractor’s Partenavia
aircraft and NOAA’s Twin Otter aircraft. An inherent and important benefit of contracting for
aircraft support is the opportunity to use alternative aircraft platforms which accomplish the same
project goals and offer the federal government significant cost savings. This is the result with the
Partenavia aircraft. The contractor told us that it has flown the Partenavia aircraft on a variety of
NOAA marine mammal surveys, including gray whale, blue whale, harbor porpoise, and
cetacean mammals. Currently, the contractor is working with NOAA on the harbor porpoise
project. We believe that this contract work demonstrates the suitability of the Partenavia aircraft
for marine mammal projects and the validity of the comparison with NOAA’s Twin Otter
aircraft.

4.     Economies of Scale as the Primary Factor Leading to the Higher NOAA Cost

NOAA Response: NOAA asserts that economies of scale are attainable for routine commercial
activities such as carrying passengers or freight, but not for NOAA aircraft which require
modifications and standby time. NOAA’s operating costs, when double counted overhead is
excluded, do not include significantly large support costs incurred by ONCO, CPC, and AOC.
Also, NOAA’s economy of scale is enhanced by cooperative arrangements with other agencies
(see page 21).

OIG Comments: We stand by our original analysis that a poor economy of scale is the primary
factor leading to the higher NOAA cost. Even after our adjustments (see Table 5, Appendix B),

                                                 45
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




overhead accounts for 30 percent of the operating costs for the NOAA aircraft. The industry
standard for overhead, on average, is 8 percent of operating costs. Contractors have leveraged
this significant difference to achieve economies of scale pursuing NOAA missions. As noted in
our report, AOC uses both of its Twin Otter aircraft to perform mammal surveys at a cost per
hour of $1,955, while a contractor for NMFS in La Jolla charges $351 per hour. Also, any
economies of scale realized by cooperative arrangements with other agencies are lost because
NOAA does not bill such agencies for the full cost of such projects.

5.     No Apparent Need for the Hughes 369/500D Helicopter

NOAA Response: NOAA claims that it retains the Hughes 369/500D helicopter for three
reasons. First, NOAA refers to the aircraft’s unique capabilities, citing its (1) small size and
compatibility with the stability restrictions of the NOAA Ship DAVID STARR JORDAN, from
which it conducts an extensive marine mammal survey for NMFS, and (2) small turbine engine
with increased lifting and carrying capacity and safety over water. Second, NOAA states it had
looked to obtain the aircraft through charter but none was available and the aircraft was no longer
being manufactured. Third, NOAA asserts that there is very little expense involved in
maintaining the aircraft in storage (see page 22).

OIG Comments: We stand by our assessment that the Hughes 369/500D helicopter should be
released, along with related spare parts, in accordance with OMB Circular A-126. Based on its
historical usage, the Hughes will never achieve the economies of scale associated with cost-
effective use. NOAA acquired the Hughes on October 1, 1987. As Table 9 (see page 47) shows,
for fiscal years 1988 through 1996, the Hughes has flown, on average, only 39 percent of the total
hours approved for it by NOAA’s Aircraft Allocation Council.

Although the Hughes may possess unique capabilities, this should not prevent NOAA from
considering alternative strategies and platforms. These would include, among others, obtaining
the services of a contractor ship and helicopter, using land-based contractor aircraft or lighter
cameras, and soliciting an aircraft service contractor to build a Hughes from available spare parts.

NOAA also noted that when the Hughes was acquired in 1987, it first had looked to obtain one
through charter but none was available. Because almost 11 years have expired since NOAA
made its initial inquiry, we encourage NOAA to survey the commercial market to determine if
aircraft service contractors may have acquired, or know where to acquire, a Hughes aircraft
should NOAA find it impossible to identify an alternative strategy for conducting marine
mammal surveys or a contractor offering an alternative platform.




                                                46
NOAA’s Light Aircraft Fleet                                                                       Audit Report
Should Be Privatized                                                                              August 1998




                                          Table 9
                                 Hughes 369/500D Helicopter
                   Comparison of NAAC-Approved With Actual Flight Hours
                                            Number of Flight Hours
                                                                                           Actual as a % of
       Fiscal Year               NAAC-Approved                      Actual                 NAAC-Approved

           1988a                         360                         200.9                        56%

           1989                          480                         209.3                        44

           1990                          390                         126.8                        33

           1991                          370                         103.0                        28

           1992                          300                         87.9                         29

           1993                          135                         159.2                       118

           1994                          200                         93.4                         47

           1995                          200                          6.4                          3

           1996                          100                           0                           0

 Average Percentageb                                                                             39%
 a
 Aircraft acquired October 1, 1987

 b
  Calculation based on the total of the “Actual Number of Flight Hours” column, 986.90, divided by the total of
 the “NAAC-Approved Number of Flight Hours” column, 2,535.


NOAA claims that there is very little expense in maintaining the Hughes in storage. While this
may be true, the economy of annually incurring expenses to bring the aircraft out of storage,
prepare and maintain it for use, and operate it when that aircraft has been historically
underutilized, is questionable. Retaining the Hughes does not appear to be a cost-effective
alternative.

6.      Other Factors Contributing to the Higher AOC Costs Per Flight Hour

NOAA Response: NOAA takes issue with two of the factors which, in our opinion, contribute to
the higher AOC costs per flight hour. These are (1) downtime attributable to increased
maintenance and (2) the lack of an OMB Circular A-76 cost comparison. Regarding downtime
and maintenance, NOAA states that there is no data that shows current costs are being driven up
by increased maintenance requirements or that scheduled maintenance has ever adversely
affected the operational commitments of any NOAA aircraft. Regarding OMB Circular A-76
cost comparisons, which are required by OMB Circular A-126, NOAA claims that Circular

                                                       47
NOAA’s Light Aircraft Fleet                                                          Audit Report
Should Be Privatized                                                                 August 1998




A-126 applies primarily to governmental aircraft versus commercial aircraft for travel of
government officials. NOAA does not use its aircraft for travel purposes because they are
modified for scientific data collection rather than carrying passengers. Also, NOAA asserts that
it has submitted the results of its 1995 in-house cost study to the Congress and OMB, and
discussed them with NOAA managers at NAAC meetings (see pages 24 and 25).

OIG Comments: We disagree with NOAA’s responses to these two factors. Regarding
downtime and maintenance, our opinion in the draft report did not refer specifically to scheduled
maintenance. As NOAA’s fleet becomes older, the incidence of unscheduled maintenance
attributable to repairs, in our opinion, will increase, resulting in increased downtime, and
decreased operational time. Related problems, such as out-of-stock parts and higher priorities of
AOC maintenance staff, can compound these delays. As to the issue of the applicability of OMB
Circular A-126 to NOAA’s aircraft, the wording in the circular clearly and unmistakably
indicates that such aircraft are covered. Circular A-126 (Section 4, Scope and Coverage) states:
“This Circular applies to all government-owned, leased, chartered and rental aircraft and related
services operated by Executive Agencies...” (emphasis added). Also, the circular (Section 3,
Background) states that “...government-wide policy guidance with respect to the use of
government aircraft should be clarified to restrict the operation of government aircraft to defined
official purposes; ...” These official purposes include, among others, aeronautical research,
science applications, and other such activities (Section 5b, Mission requirements). Regarding
NOAA’s submission of the results of its in-house cost study to the Congress and OMB, and the
discussions with NOAA managers, NOAA is reminded that the study was not prepared in
accordance with the requirements of A-76, as required by Circular A-126.

7.     Retired Officer Pay and Health Care Contract Costs ($1,106,097)

NOAA Response: NOAA states that retired officer pay and health care are included in Table 5,
Appendix B, and should not be included again because that would be double counting, or in this
case, triple counting (see page 33).

OIG Comments: We disagree with NOAA’s statement. We call NOAA’s attention to the report
section that follows Table 5, entitled “Methodology for Assigning the Costs.” Part A.4,
“Exclusions,” includes the subject costs. As the description of this part clearly indicates, these
costs were excluded from our calculation of the overhead cost pool.

8.     Comparison of OIG-Calculated Full Cost for the NOAA-Owned Aircraft with the
       Industry Standard

NOAA Response: NOAA replied that the industry standard costs for aircraft of similar make
exclude daily use or standby time and modification costs required to meet NOAA missions and
do not represent the hourly costs to meet NOAA missions (see page 33).


                                                48
NOAA’s Light Aircraft Fleet                                                         Audit Report
Should Be Privatized                                                                August 1998




OIG Comments: We disagree with the NOAA response. Industry standard costs excluded daily
use or standby time and modification costs required to meet NOAA missions for the same
reasons we discussed earlier as to why our estimates of hourly contractor rates excluded them
(See Appendix D, pages 37 and 38).

OIG FINDING: NOAA SHOULD DISCONTINUE USING ITS LIGHT AIRCRAFT FOR
INTERAGENCY REIMBURSABLE PROJECTS

Recommendations

                                      Recommendation #1

       Discontinue all interagency reimbursable work related to NOAA-owned fixed-wing light
       aircraft and helicopters.

NOAA Response: NOAA disagrees with the recommendation to discontinue interagency
reimbursable work involving light aircraft and helicopters. NOAA emphasizes the benefits
derived by NOAA as well as the sharing agency. Cost sharing arrangements with other agencies
provide an effective approach for meeting some of NOAA’s data collection requirements. It is
NOAA’s policy to waive certain charges to other agencies for such projects. NOAA cites two
examples, SHOALS and the Marine Mammal Monitoring Program, of reimbursable projects
from which both NOAA and the sharing agency have benefitted from a cooperative arrangement.

OIG Comments: We reaffirm our recommendation. We agree that the shared use of resources to
acquire data can be beneficial to both NOAA and the sharing agency. Accordingly, we have
reduced full in-house costs in Table 3 for the allowable waived NOAA support costs of $52,936
on the SHOALS project and $1,042 on the marine mammal project. However, even after these
adjustments for allowable waived costs, AOC only recovered, on average, 41 percent of the full
in-house cost to operate the NOAA light aircraft in fiscal year 1996. Even more important,
however, than the lack of full cost recovery on reimbursable projects is the fact that NOAA’s
light aircraft are 42 percent more costly to operate when compared with the private sector.
Because of the higher relative expense to operate the NOAA light aircraft and the lack of full
cost recovery, it is essential that NOAA discontinue all interagency reimbursable work related to
its fixed-wing light aircraft and helicopters.

                                      Recommendation #2

       Complete current interagency reimbursable agreements in accordance with NOAA’s
       stated policy of full cost recovery.

NOAA Response: NOAA disagrees with the recommendation to modify current reimbursable
agreements for full cost recovery. NOAA’s policy provides for recovery of full costs, both direct

                                               49
NOAA’s Light Aircraft Fleet                                                            Audit Report
Should Be Privatized                                                                   August 1998




and indirect in some situations, and allows waiving of certain costs when the project is beneficial
to NOAA. Waiving certain charges to partnering agencies provides an effective approach for
meeting some of NOAA’s data collection needs.

OIG Comments: We reaffirm our recommendation. NOAA’s waiver of costs accounted, on
average, for only 6 percent of full in-house costs in fiscal year 1996. The critical point is that in
fiscal year 1996, NOAA appropriations funded well over half the total cost of three of the four
interagency reimbursable agreements included in our sample, resulting in a cost underrecovery of
$573,064 and the diversion of essential resources away from its core mission. Therefore,
pending the discontinuance of interagency reimbursable work, NOAA should preserve funding
for its core mission by completing current interagency reimbursable agreements in accordance
with NOAA’s stated policy of full cost recovery.

                                       Recommendation #3

       Revise AOC’s billing practices to be consistent with, and achieve, full cost recovery on
       all reimbursable agreements with outside sponsors.

NOAA Response: NOAA agrees that billing practices should be consistent with full cost
recovery where applicable. However, NOAA disagrees that waiving some costs represents an
underrecovery of funding when the sharing of resources provides benefits to NOAA. In addition,
NOAA believes that waiving costs does not represent diversion of essential resources away from
its core mission. The waiving of costs often allows data acquisition at reduced costs to both
NOAA and the sharing agency.

OIG Comments: We reaffirm our recommendation. We believe that the waiving of costs in
accordance with the criteria of the NOAA Budget Handbook is appropriate and we commend
NOAA for undertaking cooperative projects to allow data acquisition at reduced costs to both
NOAA and the sharing agency. However, we remind NOAA that total waived costs account for
only 6 percent, on average, of full costs to operate its aircraft in fiscal year 1996. Cost
underrecovery occurs on NOAA reimbursable projects primarily because of weaknesses in
AOC’s billing process, not because of waived costs. For example, AOC reported to GSA costs
for operations overhead and insurance for all aircraft assigned to the four sampled reimbursable
projects but omitted these costs on the billing statements. As discussed in this report, when
NOAA underrecovers on interagency reimbursable projects, it diverts essential funding intended
for its core mission to the missions of other agencies. Therefore, pending the discontinuance of
interagency reimbursable work, NOAA’s billing practices should be revised to be consistent with
full cost recovery, regardless of waived costs.




                                                 50
NOAA’s Light Aircraft Fleet                                                         Audit Report
Should Be Privatized                                                                August 1998




                                      Recommendation #4

       As appropriate, immediately amend any current interagency reimbursable agreements not
       based on full cost recovery.

NOAA Response: NOAA disagrees with the recommendation to modify all current reimbursable
agreements for full cost recovery. It is NOAA’s policy to waive certain charges to the other
agency for projects that allow NOAA to collect data of benefit to its programs.

OIG Comments: We reaffirm our recommendation. As discussed in the report and in our
comments on NOAA’s responses to our recommendations, underrecovery on NOAA
reimbursable projects puts at risk projects associated with NOAA’s core mission and diverts
NOAA funding to the projects of other agencies. Until NOAA discontinues interagency
reimbursable work, it is essential that NOAA immediately amend any current interagency
reimbursable agreements not based on full cost recovery.

                                      Recommendation #5

       Seek reimbursement, beginning with fiscal year 1996 and where permitted by agreement,
       of the unrecovered full cost balances on all current reimbursable projects.

NOAA Response: NOAA disagrees with the recommendation to seek unrecovered full cost
balances, from fiscal year 1996 to present, on all current reimbursable projects. Most current
reimbursable projects provide access to data that are useful to NOAA. Sharing costs with other
agencies, through the waiving of certain costs, to obtain data for NOAA benefit is consistent with
NOAA policy.

OIG Comments: We reaffirm our recommendation for the same reasons cited in our report and in
our comments on NOAA’s responses to the previous recommendations regarding interagency
reimbursable work.

Other Related Issue

NOAA raises the following other issue related to this finding. The page reference is to NOAA’s
complete response to the draft audit report, Appendix E.

•      Billing Rates for the Twin Otter Aircraft

NOAA Response: NOAA asserts that the billing rates for NOAA’s two Twin Otter aircraft were
$423 and $511 per hour. The rate for one of the Twin Otters was reduced because it was
damaged during maintenance and the cost to repair the damage was excluded (see page 30).


                                               51
NOAA’s Light Aircraft Fleet                                                         Audit Report
Should Be Privatized                                                                August 1998




OIG Comments: We disagree with NOAA’s assertion. The billing rates on the two Twin Otters
are not different. Based on AOC’s billing statements, the Twin Otters are billed at the same rate
on the marine mammal project with the U.S. Navy and the hurricane response project with
Interior, as follows:

                                         Table 10
                           Reimbursable Billing Rates on NOAA’s
                           Twin Otter Aircraft in Fiscal Year 1996
                                                               Number of
      Project            Aircraft         Amount Billed        Flight Hours    Hourly Rate Billed

 Marine Mammal            N48RF              $21,887               46.9              $467

 Marine Mammal           N485RF               21,441               45.9               467

 Hurricane Response       N48RF               18,941               37.1               511


The rates for the marine mammal project and the hurricane response project using the Twin
Otters are different because more costs were waived for the marine mammal project. On the
marine mammal project, AOC waived costs totaling $8,837, whereas on the hurricane response
project AOC waived costs totaling $2,192. The rates are not different, as NOAA asserts, because
one of the Twin Otters was damaged during maintenance and the cost to repair the damage was
excluded.




                                               52
                                                                                            APPENDIX     E
                                           UNITED      STATES DEPARTMENT OF COMMERCE
                                           National    Oceanic and Atmospheric Administration
                                           CHIEF   F I N A N C I A L OFFICEWCHIEF   ADMINISTRATIVE   OFFICER




      MEMORANDUM FOR:          George E. Ross
                               Assistant Inspector General for Auditing

      FROM:                    Andrew Moxam m&
                               Acting Chief Financial Officer/
                                 Chief Administrative Officer

      SUBJECT:                 NOAA's Response to the OIG Draft Audit Report
                               Light Aircraft Fleet Should Be Privatized
                               NAD-9952-8-XxXx/February 1998


      This is in response to your request for written comments on the
      subject OIG draft audit report.  Overall, we cannot agree with
      most of the report's conclusions and recommendations.    In part,
      it appears that our differences pertain  to costs  captured for the
      operation of the aircraft.  Therefore, we differ in the
      percentage of contract cost -- i.e., we believe the aircraft
      operation costs are 32 percent less than contracting, while the
      report reflects that it costs 69 percent more.    Since our
      differences have an impact on the funds issue, we cannot agree
      that there are $12 million to be put to better use.

      Our detailed comments are attached.   It provides an overview
      of our response, along with a response to the report's
      recommendations and findings.  We are willing to meet with you in
      an attempt to resolve our differences.

      Attachment




    Pnnted on Recycled Paper
@
